<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]


 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2010 

                              ----------                              


                         THURSDAY, JUNE 4, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Ben Nelson (chairman) presiding.
    Present: Senators Nelson, Pryor, and Murkowski.

                          LIBRARY OF CONGRESS

STATEMENT OF HON. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        JO ANN JENKINS, CHIEF OPERATING OFFICER
        DR. DEANNA MARCUM, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        KURT CYLKE, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE BLIND 
            AND PHYSICALLY HANDICAPPED

                OPENING STATEMENT OF SENATOR BEN NELSON

    Senator Nelson. Good afternoon, everybody, and welcome. We 
meet this afternoon for our fourth and final legislative branch 
budget hearing for fiscal year 2010. Today, we will hear from 
the Library of Congress and the Open World Leadership Center.
    It is my pleasure to welcome my ranking member--my 
recovering ranking member here--and good friend, Senator 
Murkowski. It has been a real pleasure working with her 
throughout this process this year, as well as with the other 
members of the subcommittee, Senator Pryor and Senator Tester. 
And we hope that perhaps they will be able to join us today as 
well.
    And I want to welcome our witnesses today--Dr. James 
Billington, the Librarian of Congress, and Ambassador John 
O'Keefe, Executive Director of the Open World Leadership 
Center. It is good to have both of you gentlemen here this 
afternoon, and we are looking forward to hearing from you.
    We would hope that perhaps you would keep your opening 
statements as brief as possible, perhaps around 5 minutes, and 
submit the rest of your testimony for the record.
    One thing that we have established at our first three 
hearings, and I hope it bears repeating, is that we are not 
eager to increase the overall legislative branch budget this 
year. And so, we are looking for your guidance in helping us to 
address your agency's needs in fiscal year 2010, but this is 
not the year for the ``nice to haves.''
    Senator Murkowski and I look forward to working with you in 
this regard, and we have been working with the other members of 
the legislative branch in that regard as well.
    First of all, Dr. Billington, I want to welcome you and 
your Chief Operating Officer, Jo Ann Jenkins. It is an honor to 
have you here today. On behalf of the subcommittee, I want to 
wish you heartfelt congratulations on your 80th birthday.
    And thank you for your service as Librarian of Congress for 
these last 22 years, very important years in the development 
not only of the Library for Members of Congress, but for your 
efforts to reach out to world leaders and to bring them into 
the kind of librarian finesse that you have been able to 
continue to provide for all of us, and we appreciate that.
    I know personally, having been with you in Moscow and your 
close association with Mr. Putin and Mrs. Putin, and what you 
have been able to do to help them with their library efforts is 
commendable and makes us all very, very proud. Your service in 
this capacity is both highly commendable and greatly 
appreciated, and we can't express enough our appreciation for 
those efforts.
    The Library's fiscal year 2010 request totals $658 million, 
an increase of $51 million, or 8.5 percent over fiscal year 
2009. And I note that a large portion of your increase, about 
$20 million, has to do with upgrades to the Library's 
information technology systems. I look forward to hearing from 
you and discussing this with you just a little later on.
    I also want to welcome Ambassador O'Keefe of the Open World 
Leadership Center. Your budget total is $14.456 million, an 
increase of $556,000, or 4 percent above the current year.
    I want you to know that I strongly support the work of Open 
World. We are very proud of what you are doing in reaching out 
and bringing others into the kind of relationship with our 
country that we all want and we know that the others respect 
and want to continue.
    Your leadership in that area, your role has been 
tremendous. We are both proud and very supportive of your 
efforts, and we want those efforts to be able to continue. And 
we want to work with you in order to make sure that that, in 
fact, does happen.
    And now I would like to turn it over to my friend and 
ranking member, Senator Murkowski, for her opening remarks.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    I appreciate how this series of hearings has gone. This is 
our fourth and our last, as you have noted. But as a new member 
to the Appropriations Committee and certainly a new member here 
with this Legislative Branch Subcommittee, there has been a 
great deal of focus and attention to the real workings of what 
goes on within the legislative branch, and I appreciate that.
    Sometimes this is one of those appropriations subcommittees 
where things just kind of move forward on status quo, and I 
think the level of inquiry that we have had in subcommittee 
with your leadership, it has been appreciated on all ends. And 
I just wanted to make that comment.
    I want to welcome the witnesses before us today. I had an 
opportunity to do a little sit-down with Dr. Billington and 
Ambassador O'Keefe. I appreciate that a great deal.
    Ms. Jenkins, it is a pleasure to welcome you back, and I 
know you have got a full team behind you as well. We certainly 
welcome you to the subcommittee.
    There is also an Alaskan today that I want to acknowledge. 
The Library brings to Washington every year a teacher to work 
with its Educational Outreach Division. And for the 2008-2009 
school year, the Library selected David Miller, who is the 
library media specialist from Ketchikan High School.
    I didn't go to Ketchikan High. I was born there. My parents 
both went there. So it is nice to have a hometown person 
associated with our Library. He has worked on several different 
projects, including an online professional development project, 
facilitating educator workshops, and developing teacher 
materials for the Library's Learning Page, which is great.
    The Library has had some important events in the last year, 
including the opening of its new visitor's experience in the 
Jefferson Building, the launching of the World Digital Library 
in Paris with partners from 21 countries, and the first full 
year of operating the state-of-the-art National Audio-Visual 
Conservation Center in Culpeper, Virginia.
    And Dr. Billington, Senator Nelson mentioned your work with 
Russia, and we know your involvement, very instrumental 
involvement with the opening of the Yeltsin Presidential 
Library in St. Petersburg, Russia. These are truly important 
accomplishments.
    Mr. Chairman, you have noted that for fiscal year 2010, the 
Library of Congress is requesting a budget of $699 million, 
offset by collections of $41 million, and this is primarily 
from copyright fees, which is an increase of 8 percent over 
fiscal year 2009.
    There are some large new initiatives included in the 
budget, such as multiyear information technology enhancements, 
which total about $15 million annually. This is an area that 
hasn't received budgetary increases in some time. So I look 
forward to hearing why an increase of this magnitude is 
justified, how it ties to an agencywide digital strategy.
    As far as the Open World program, Mr. Chairman, you have 
clearly noted your support for that program. They are 
suggesting an increase by 4 percent. I will ask in my questions 
to you, Ambassador O'Keefe, how and why a foreign exchange 
program belongs in the legislative branch bill.
    I am not questioning whether or not it should continue, but 
whether this is the right spot for it. I think you have 
probably had that question before. So I will look forward to 
your response with that.
    With that, Mr. Chairman, I am anxious to hear the comments 
from those who are here today to present.
    Senator Nelson. Well, at the risk of further embarrassing 
Dr. Billington, I certainly would like to say, Dr. Billington, 
that so many of us consider you a national treasure in your 
role in the Library and what you have done to reach out to 
others in the world.
    And certainly, Ambassador O'Keefe, you embody the same 
spirit. So, with that, Dr. Billington, we would love to receive 
your testimony.

                SUMMARY STATEMENT OF JAMES H. BILLINGTON

    Dr. Billington. Thank you, Mr. Chairman and Senator 
Murkowski, members of the subcommittee.
    It is really an honor to be here to represent the Library 
of Congress fiscal 2010 budget request.
    The Library has been honored to bring our outstanding 
recent exhibit, Mr. Chairman, commemorating the 200th 
anniversary of Abraham Lincoln's birth to Omaha as its last 
stop. Actually, it began in Omaha because Union Pacific funded 
it and made it possible. So it is only fitting that it had its 
last stop in that city.
    Senator Murkowski, we really appreciated your staff touring 
the exhibit with Library curators while it was still in the 
Jefferson Building, and we look forward to your coming to the 
Library this summer to look at our holdings on Alaska.
    It happens that right now a member of our staff, in 
addition to Mr. Miller, who is with us this year with our 
Teaching with Primary Sources Program that the Congress has 
supported so well, is running a teacher training workshop in 
Anchorage, and she just reported to us that every school 
district in the State is represented, except for Juneau, where 
the schools are still in session.
    So, anyhow, we look forward to working with you both and 
with all the members of this subcommittee, and we appreciate 
your cordial words.
    In fiscal 2010, we are requesting a net increase of 8.1 
percent, of which 4.6 percent represents funding for mandatory 
pay and price level increases; 0.4 percent is to sustain 
continuing projects, and the remaining 3.1 percent--the only 
major increase this year--is to support a critical investment 
in updating and enhancing the Library's technical 
infrastructure.

                 TECHNOLOGY INFRASTRUCTURE REQUIREMENT

    We are, in effect, superimposing a digital world on top of 
the traditional print world, moving from traditional business 
systems of personnel, finance, cataloguing, and management of 
information systems, to taking in and managing the very fast-
changing digital formats that include eJournals, eBooks, 
digital TV, Web sites, digital images, digital audio and 
visual, and so forth.
    Each of our major program areas, the Congressional Research 
Service, Library Services, the Law Library, the Office of 
Strategic Initiatives, and the Copyright Office, must now deal 
with all aspects of digital works--acquiring them, preserving 
them, and providing access to them.
    Over the past 15 years, we have built separate systems, 
successfully meeting individual program needs as they have been 
identified to deliver the new services that Congress and the 
American people have asked of us. Some of these systems are 
new, like the Copyright Office's online registration system. 
Others rely on what has now become very dated technology.
    The Library has not sought any increase in base funding for 
the technological infrastructure for all of this for a decade. 
We now have a pressing need to modernize this infrastructure so 
that we support our diverse and vastly increased digital 
activity more efficiently. We must do so with more unified 
Library-wide systems that can be adjusted and scaled up 
economically to sustain services and meet new user demands as 
the technology changes.

                   SUPPORT FOR DIGITAL TRANSFORMATION

    We are now providing far more services and with 1,000 fewer 
full-time equivalents (FTEs) than we had in 1992, when we had 
barely begun the Library's digital transformation. Our entire 
technology request builds upon successful services that we have 
built incrementally, and unique experiences and feedback that 
we have gained through a variety of these initiatives.
    We are now poised to develop core infrastructure that can 
be used by all parts of the Library. We recently launched with 
UNESCO our World Digital Library, which has received 
extraordinary international acclaim with something online from 
all 192 members of UNESCO. It attracted 20 million page views 
in its first 4 days and is proving to be an effective catalyst 
for building the new technological platform with reusable, 
scalable, and multimedia components.

                               FORT MEADE

    In conclusion, let me just highlight our Fort Meade 
request. Having the space to store so much of America's 
creativity and the world's knowledge in environmentally 
controlled facilities is critical to sustaining the historic 
mission of the Library. Publication continues to grow 
worldwide; has increased by approximately 40 percent since 
2000, even as online digital information is expanding. The Fort 
Meade program has achieved 100 percent retrievability, and is 
essential for preserving and making accessible our uniquely 
comprehensive collections for Congress.
    Amazon has recently stated that no meaningful solutions for 
effective long-term collection management can be implemented 
until more space is created, after inspecting the collections 
in a recent pro bono visit to the Library. The Library is a 
unique treasure trove of information, knowledge, and 
creativity, much of which is not available anywhere else.

                          PREPARED STATEMENTS

    Today, when technology is transforming the way we deliver 
our services to Congress and the Nation, the Library is 
renewing and expanding its role in our knowledge-based 
democracy. We look forward to working with this subcommittee to 
craft a budget for fiscal 2010, and we thank you and the 
Congress as a whole for continuing to be the greatest patron of 
a library in the history of the world.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Dr. Billington.
    [The statements follow:]
               Prepared Statement of James H. Billington
    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee, I am pleased to present the Library of Congress fiscal 
2010 budget request.
    Mr. Chairman, I am deeply grateful to you and the subcommittee for 
your full support of our fiscal 2009 request. It has heartened and 
strengthened us at what we know is a time of extraordinary fiscal 
pressures on the Federal Government. In such a time, I feel a special 
obligation to stress the importance of what the Library of Congress is 
doing for America's future.
    The Congress of the United States has been, quite simply, the 
greatest patron of a library in the history of the world. Its creation, 
the Library of Congress, is the largest and most diverse collection in 
human history of the world's knowledge in all languages and of the 
intellectual and artistic creativity of the American people in all its 
major recorded formats.
    The Library's historic mission has been to serve the Congress and 
the American people by acquiring, preserving and making accessible its 
unique material and human resources. Its major challenge--and 
opportunity--in recent years has been to sustain and extend that 
mission amidst one of the greatest revolutions in history in how 
knowledge is generated and communicated.
    Our task has been, in effect, to superimpose new digital processes 
and services onto those of traditional artifactual library processes--
while preserving and exemplifying the human values of the older book 
culture that helped create the free, open and knowledge-based democracy 
that we serve. In the course of meeting this challenge, we have 
undertaken a far greater range and volume of innovative processes and 
services than ever before with one thousand less FTEs than in our peak 
pre-digital year of 1992.
    Congressional vision and support has made it possible to continue 
to add important new acquisitions and to sustain unique preservation 
activities. Thanks to the Congress' building a direct passageway from 
the Capitol Visitor Center into the Thomas Jefferson Building, we have 
greatly increased numbers of visitors to see an entire new series of 
interactive exhibits culminating in the centerpiece of the Lincoln 
bicentennial that displays for the first time in 50 years the key 
original documents of Lincoln's presidency in his own hand. We were 
glad to welcome the creation of a Library of Congress Caucus in the 
course of 2008. And we are pleased to note the steady increase of the 
use of the Members Room and other Library facilities now that the 
tunnel directly connects the Library to the Capitol Visitor Center and 
to the Capitol itself.
    Thanks to Congressional support and the unprecedented generosity of 
David Packard and the Packard Humanities Institute, the magnificent new 
Packard Campus for Audio Visual Conservation in Culpeper, Virginia is 
now up and running under its outstanding new director, Patrick 
Loughney. The Packard Campus is, in essence, a high-capacity digital 
preservation facility for our massive and largely perishable audio and 
film collections. We are now able to save many collections that would 
otherwise have deteriorated and been lost forever.
    We are now in the process of hiring 39 new staff, and the Packard 
Campus is well-launched. The film preservation lab is operational and 
digital preservation of sound recordings, television, and radio 
broadcasts preservation work has started.
    I am pleased to report that our National Library Service for the 
Blind and Physically Handicapped is on schedule with the Digital 
Talking Book program. We have received the first 5,000 machines and are 
sending them to eight regional libraries for user testing. We will also 
send the first book cartridges to these regional libraries next week.
    On April 21, 2009, the Library, in cooperation with UNESCO, 
launched our new World Digital Library. Within hours of going online, 
this multilingual and multi-medial site had attracted 600,000 visits 
and more than 7 million page views. Our National Digital Library/
American Memory site also began with a relatively small number of high 
quality, one-of-a-kind cultural treasures but has now steadily grown to 
more than 15 million online primary source files with educational 
enhancements.
                       fiscal 2010 budget request
    We are requesting a total fiscal 2010 budget of $699.4 million, 
representing a $52.6 million or 8.1 percent increase over fiscal 2009 
funding levels. The majority of this increase represents funding for 
mandatory pay and price level increases totaling $29.8 million or 4.6 
percent. Funding adjustments to support ongoing projects, totaling 
$16.6 million, and non-recurring funding for projects that are ending 
(-$13.7 million), represent a total of $2.9 million or 0.4 percent. The 
remaining 3.1 percent or $20 million represents the focus of our fiscal 
2010 budget request, seeking support for investment in the Library's 
technical infrastructure.
      modernizing the aging technology infrastructure--$20 million
Infrastructure--$15.4 million
    The mandatory pay and price level increases are critical for 
keeping the Library whole, but our highest programmatic funding 
priority in fiscal 2010 is an increase in base funding to update and 
enhance the Library's technology infrastructure, upon which the 
progress of all service units of the Library depends. The Library 
requests $15.4 million to modernize our technology. This investment 
will fund: core technology, content management, and content delivery--
three areas that are inextricably linked. We need an updated technology 
infrastructure before we can construct a foundation for bringing 
digital content into the Library, managing it so that it can be used by 
the Congress and the American people, and preserving it for future 
generations.
    Up until now, the Library has benefited from a centralized catalog 
of print holdings, but the digital projects have been designed and 
maintained separately. This is entirely understandable in a time of 
experimentation and transition, but at this stage of our digital 
maturation, we are now poised to develop core infrastructure that is 
used by all parts of the Library, and to implement flexible, scalable 
systems that meet the broad needs of the institution. The launch of the 
World Digital Library has proven to be a useful catalyst for the 
development of a new technology platform with reusable and scalable 
components. This modern form of technical infrastructure will allow us 
to streamline and make more efficient our workflows and processes 
throughout the Library.
    The 21st century Library is increasingly multi-medial. Our budget 
request will allow the Library to build sustainable systems to manage 
digital content of many varieties: video, audio, text, and images. Such 
technical systems will allow us to manage all of these formats in more 
cost-efficient, integrated ways. The funding we are requesting will 
also allow us to make these multi-media materials available to the 
Congress and other users in the ways they now expect: fast, convenient, 
and easy-to-use.
Legislative Information System--$1.6 million
    One of the Library's key means of providing information to the 
Congress is through the Legislative Information System (LIS), which was 
first made available in the 105th Congress. This system provides 
Members and their staff with online access to the most current and 
comprehensive legislative information. The LIS has been developed under 
the direction of the House Committee on House Administration and the 
Senate Committee on Rules and Administration. It has been a 
collaborative project of several legislative branch offices and 
agencies. CRS has responsibility for overall coordination of the 
retrieval system. The Library is responsible for its technical 
development and operation.
    We are requesting a one-time investment of $1.6 million to update 
the current LIS so that it can meet growing demands. The new concept of 
operations will be based on a thorough assessment of the current system 
and develop an architecture that provides enhancements for users to 
better perform discovery, navigation, and retrieval across the entire 
spectrum of legislative content. The new system will take a modular 
approach to functions such as search and storage, so that they can be 
independently improved in the future. The Library will reconfigure LIS 
in consultation with House, Senate, Government Printing Office and CRS 
data providers.
Targeted User Interactivity--$3 million
    Finally, we request an investment of $3 million to support the 
broad expansion of public access to the Library's collections and 
services on-site and online through the testing, evaluation, and 
adoption of emerging new technologies for the K-12 and teacher 
communities. Successful implementation of the Library of Congress 
Experience in the Thomas Jefferson Building has dramatically increased 
public awareness and unleashed the educational potential of the Library 
and its collections through the creative application of new interactive 
programs. Visitorship is up nearly 30 percent since its initial launch 
in April of 2008.
              improving access, capabilities, and services
    Over the past 6 months, the Congressional Research Service has 
shown its exceptional capacity to serve the Congress under 
extraordinary and time-sensitive conditions. It provided comprehensive 
analysis and legislative support during the financial crisis, the auto 
industry crisis, the fiscal 2009 appropriations bill and the fiscal 
2010 budget resolution. It produced more than 100 reports for the 
American Recovery and Reinvestment Act of 2009 alone. This year it has 
identified more than 170 active issues for which it will support 
Congress in every step of the legislative process.
    We ask for $1.8 million to enhance access to Congressional Research 
Service (CRS) expertise by modernizing the technical environment that 
supports it. These systems govern how CRS manages and supports its 
research operations, personnel systems, and the systems used to run, 
maintain, and update the CRS web site for Congress. An additional 
$500,000 is requested to purchase network storage and switch hardware 
to improve the IT and emergency backup capability of CRS.
    The renewed LIS will also benefit the public THOMAS system. To 
continue to meet the public's need for legislative information, we 
request $138,000 to hire a web site manager who will develop a user 
interface and an improved navigation system for THOMAS users. The 
THOMAS site has seen a steady increase of inquiries from your 
constituents, and it is important that we make this web site more user 
friendly.
    We request a one-time $1.1 million increase in offsetting 
collections authority for the Copyright Licensing Division so that we 
can secure consulting services to help us convert from a manual to an 
electronic filing process. Electronic filing is needed to maintain 
reasonable operating costs in future years and to minimize increases 
that would be unacceptable to the Congress, copyright owners, and cable 
system operators.
    The Library is requesting $2.7 million to expand the availability 
and usefulness of legal materials collected and stored in the Global 
Legal Information Network (GLIN), a database of more than 160,000 laws 
and related legal materials from 51 jurisdictions in Africa, Asia, 
Europe, and the Americas. In fiscal 2005, the Law Library launched a 
major upgrade of the GLIN system that vastly improved functionality and 
usability, including providing access in 13 different languages. GLIN 
has since attracted a global audience that has increased tenfold, 
exceeding its performance target by 800 percent. As the system has 
improved, new jurisdictions have become members, the size of the 
database has increased, and the level of use continues to expand. This 
funding is specifically requested over a 5-year period, to upgrade and 
refresh the hardware and software to sustain GLIN operations as the 
program continues to expand in content, usage, and membership. This 
funding will also further the Law Library's mission to support the 
foreign law research needs of the Congress, promote the rule of law 
between and among nations, and support the legal information needs of 
emerging democracies. The Law Library has created a private GLIN 
Foundation and will work to attract private financing over the long 
term. This request will cover the hosting and maintenance of GLIN to 
ensure the continuity of operations as new members join.
            reengineering work processes in library services
    The Library staff increasingly relies on more current technologies 
to perform the new tasks that are required of them. We are assessing 
all of the workflows and processes to make the most effective use of 
present and emerging technologies. For Library Services (LS), where our 
core library functions are carried out, we are requesting $1 million in 
contractual support for a 3-year project to document and evaluate 
operational procedures and information technologies (IT) currently used 
in the 52 divisions of LS. We anticipate many opportunities to 
consolidate technology services within LS to create a more robust and 
integrated architecture and workflows. We will determine which data 
systems and services should be provided within LS and which should be 
provided centrally by the Library's Information Technology Services 
(ITS).
                   managing and securing collections
    We request $1 million to continue the inventory management program 
that was initiated in fiscal 2002 as a cornerstone of the Library's 
Strategic Collections Security Plan, when Congress directed the Library 
to conduct an item-level inventory of its general collections. We have 
made reasonably good progress with that inventory; however, when we 
began moving general collections to Fort Meade, we quickly recognized 
that our most important inventory goal had to be the effective 
retrieval of materials moved there. Happily, we have achieved a 100 
percent success rate in retrieving requested items from that location. 
Now, as we return to the original objective of conducting an item-level 
inventory of our general collections, we are working with the 
commercial sector to explore new technology options for this process. 
Some of these practices are already in place at Fort Meade. The scope 
of this effort is unprecedented. We are grateful for Congressional 
attention and support for this large and complex endeavor.
    To ensure that the Library's heritage assets are preserved for use 
by current and future generations, we are asking for $3.6 million in 
start up and new operational costs for Fort Meade Storage Modules 3 and 
4, which will house our special collections. This kind of housing for 
the Library's special collections is crucial to the Library's long-term 
strategy to provide for their security and preservation, as well as to 
provide sound space management and inventory management. This 
relocation will dramatically increase the life expectancy of these 
vulnerable collections.
    The operation of Modules 3 and 4 will be more intensive and 
expensive than the implementation of Modules 1 and 2, involving the 
expense of new hardware and software, collections protection and 
preservation, moving, on-site support staff, and facility management, 
largely because we are moving special format materials to Modules 3 and 
4, while Modules 1 and 2 house general collections. This year the 
Library is absorbing some costs associated with the opening of Modules 
3 and 4. Base funding is needed in fiscal 2010 for start-up and 
operational costs that will allow the Library to meet requirements in 
the areas of security, preservation, space management, and inventory 
management. With your support, we also will be able to conduct 
construction planning for Module 5 and prepare facility designs for 
Modules 6 and 7. The Architect of the Capitol has included $16 million 
in fiscal 2010 request for construction of Storage Module 5, which will 
help alleviate overcrowding on Capitol Hill and address serious 
concerns about safety, retrieval, and preservation.
    The construction of storage modules at Fort Meade has been one of 
the more significant preservation advances for the Library in decades. 
In short, this program has ensured that the Library of Congress remains 
the mint record of America's creativity by allowing continued 
acquisition of America's creative output and providing optimal storage 
conditions for our existing works.
                        additional requirements
    We are also asking for $238,000 for collections security on Capitol 
Hill, for extended reading room security guard services. Other 
requested funding includes $2 million for the final increment of 
mandated funding for Capital Security Cost Sharing, $2 million for 
modernized, environmentally friendly custodial services, $300,000 for 
facility design services for more complex renovations, and $334,000 for 
escape hoods for the visiting public.
                               conclusion
    Mr. Chairman, I recognize that difficult choices are necessary in 
this economic climate. The Library has already recognized the need to 
sustain our core functions with level or reduced resources. We believe 
that the key to continued success is to make more effective use of 
technology. The $52.6 million we are requesting is an investment to 
ensure that the Library stays current with the new technology in 
today's Internet-based world while we continue to maintain traditional 
services. With your support, the Library will continue to perform its 
historic mission to make its resources available and useful to the 
Congress and the American people and to sustain and preserve the 
world's most extensive collection of knowledge and creativity for 
future generations. I believe that, with the careful investments I have 
outlined, the Library will continue, renew, and expand its role in our 
knowledge-based democracy--today and in the days to come. Thank you.
                                 ______
                                 
  Prepared Statement of Daniel P. Mulhollan, Director, Congressional 
                            Research Service
    Mr. Chairman, Senator Murkowski, and other Members of the 
Subcommittee: Thank you for the opportunity to present the fiscal year 
2010 budget request for the Congressional Research Service (CRS). I 
would also like to highlight some of the actions and new initiatives 
undertaken recently that we consider essential elements in fulfilling 
the mission that Congress established for this agency. But before I 
discuss our request for next year, I would like to spend a few minutes 
on the importance of the mission of CRS and to relate that mission to 
the current challenges facing the Congress.
    You, as Members of Congress, are required to resolve issues that 
are growing more complex and technical and that are becoming 
increasingly interrelated in both expected and unforeseen ways. This 
complexity necessitates increased reliance on technical competence, 
which in turn demands predictability and coherence in issue areas from 
disciplines that traditionally have been more reliant on projections 
and probability. But whether determining the impact of changes in 
financial market regulations, ascertaining a method for equitable State 
allocations for Federal Medicaid payments, or examining a proposal to 
balance interests in a contentious region of the world, the well-being 
of millions of Americans is at stake if data and analysis do not 
accurately predict actual outcomes.
    The elected representatives of the people are able to rely on the 
expertise of CRS to assess options and anticipate consequences as they 
undertake critical deliberations. Our work must be authoritative, 
objective and confidential, and we must offer just what our charter 
statute instructs us to do, namely, to anticipate the consequences of 
alternative proposals and in doing so, foresee unintended consequences.
    Anticipating the consequences of proposals is becoming ever more 
difficult. The increased complexity of the problems facing Congress is 
obvious. Just look at the array of financial instruments that Members 
must understand and grasp with sufficient confidence to create a 
regulatory regime that maximizes the benefits of innovation and market 
competition while curtailing fraud and abuse. Members must rely on 
specialists in the financial markets, just as they must rely on foreign 
relations specialists with regional expertise to recognize the 
political and cultural forces at work in the world today, and health 
finance experts and health care specialists to understand the factors 
contributing to growing health care costs.
    Congress's reliance on the expertise of others presents a potential 
risk to representative democracy. Citizens elect Members of the House 
and Senate to represent their interests and the interests of the Nation 
as a whole. In effect, your constituents ask you to make decisions on 
the merits of one form of weaponry over another; on the fairest and 
most economically sound way to allocate broadband width; on the balance 
of economic, human rights, labor and environmental interests in a 
bilateral trade agreement; and on the best investment in alternative 
energy technologies. No matter how brilliant and wide-ranging the 
experience of each Member of Congress, he or she must perforce rely on 
the expertise of others on a whole range of issues to ascertain the 
best policy course given his or her values and priorities.
    Democratic theorists have raised the specter of the polity being 
run by technocrats and elite bureaucracies that supplant the people's 
voice and choice in determining the best course in an increasingly 
complex world. I would submit that an important protection against that 
vision is the expertise resident within CRS. The Congress has placed a 
significant investment in the competency and integrity of CRS staff. 
Members of Congress have all sorts of experts approaching them daily, 
and they have, of course, hired personal and committee staff with 
selected expertise or experience. Nonetheless, Members know and rely on 
Service expertise, not only to assess independently the outside expert 
opinions advocated before them, but also to complement their own 
experience and knowledge, and that of their staff, to ensure that the 
judgments they make are as well informed as possible.
    When Members turn to CRS, they can be assured that analysis they 
receive is authoritative, objective, and confidential. We do not 
advocate. We make methodologies and sources clear, and we hold 
legislative needs paramount, including the role of each individual 
Member in the deliberative processes of the Congress. The Congress's 
continued investment in CRS is tacit recognition of the need for 
expertise skilled in multiple disciplines in order that they understand 
the interactions and consequences of complex issues. The Congress also 
recognizes its need to have access to expertise that is solely devoted 
to creating sound underpinnings to inform judgments within the 
legislative branch.
                    fiscal year 2010 budget request
    The CRS budget request for fiscal year 2010 is $115,136,000, with 
almost 90 percent devoted to pay and benefits for our staff. 
Significant cost-cutting measures were required in the last fiscal year 
because the enacted budget was over $6 million less than requested. 
This necessitated a reduction in our workforce from the previous FTE 
level of 705 to the current level of 675. This is the lowest staff 
level in three decades, and CRS will continue to operate with a reduced 
level of internal support staff and services to sustain our analytic 
capacity. The lower budget also required reductions in the access to 
research materials and in the investment in information technology. The 
current budget constrains funding to support basic operational needs. 
Therefore it is necessary to request additional funding for enhanced 
means of accessing CRS analysis and information.
    The budget request for fiscal year 2010 includes the mandatory pay 
increases ($5.2 million) and price-level increases due to inflation 
($.3 million) that will maintain the existing level of service. It also 
requests two program increases totaling $2.3 million that will enhance 
the analysis available to Congress and the capabilities of the 
supporting information technology. Included in the $2.3 million request 
is $1.8 million for a modernization effort to achieve three objectives: 
(1) improve the quality and usability of the CRS website; (2) 
reconstruct and standardize Service-wide systems and information 
resources to form an integrated, interrelated, and interoperable 
research environment; and (3) revise the way CRS procures, stores, 
updates, retrieves, and shares the large, multiple, and complex data 
sets and information systems used in the creation of its analysis. The 
remaining $500,000 will support three other objectives: (1) provide 
real-time computer network fault tolerance, data redundancy, and 
automated fail-over capability in the event the computer network in the 
James Madison Building is inoperative; (2) increase network speeds to 
the Alternative Computer Facility and improve performance of critical 
applications and file transfers, which will reduce the time required to 
save files and run applications; and (3) increase computer storage 
capacity to help meet the growing demand to store CRS work products and 
research information, encompassing the full range of multimedia formats 
such as video, audio, and podcasts.
                      alignment with the congress
    CRS takes full advantage of its close relationship with the 
Congress to align its work with evolving congressional needs across the 
full spectrum of policy concerns that are on the legislative agenda, or 
are likely to arise.
    CRS works in a consultative relationship with Congress so that 
specific congressional needs are recognized as they relate to evolving 
circumstances, including changes in world events, advances in 
government operations, and developments in legislative processes. 
Members and committees of Congress and their staffs maintain 
continuing, on-demand access to CRS experts through phone calls, e-
mails, personal briefings, confidential CRS memoranda, and by 
consulting actively maintained CRS research products on our website.
    Based on its daily work with the Congress, CRS identifies and 
analyzes the policy areas in which Congress is actively engaged or is 
very likely to become engaged. CRS typically identifies between 150 and 
175 such issue areas. CRS ensures that it has identified all major 
issues that might receive legislative attention through discussions 
with leadership on both sides of the aisle in both chambers. CRS 
support for these policy areas entails formation of teams of experts 
who develop common understandings of major policy questions and 
concerns to ensure that our service for the Congress is fully informed 
by the most appropriate CRS expertise across disciplines and subject 
areas. The CRS website provides ready access to key research products 
and services in each of these policy areas.
                        support for the congress
    Over the past year, the Congress has consistently turned to CRS 
when in need of expert, objective assistance as it has addressed 
extraordinarily challenging and enduring problems.
    The financial and economic crisis that still dominates domestic and 
global settings has been the focus of intensive, continuing CRS support 
for Congress. In this area, congressional concerns that have driven the 
work of CRS experts include: limiting damage from the disorder in 
housing markets; restoring functionality to mortgage markets and credit 
markets generally; ensuring viability of financial institutions and 
their return to standard business operations; assessing impacts on 
other credit-sensitive sectors such as autos, home furnishings, and the 
pursuit of higher education; recognizing structural shifts in the 
economy accelerated by the downturn; as well as assisting victims of 
the recession, and mitigating the downturn through oversight and 
regulatory provisions that will limit the recurrence of destabilizing 
financial excesses. CRS economists, legislative attorneys, and 
specialists in American national government, among others, have 
analyzed a range of proposals from the previous and current 
administrations, examined actions in other countries, and assisted in 
assessing evolving economic developments and in identifying and 
evaluating legislative options. Questions CRS has addressed relate to 
concerns such as feasibility, effectiveness, constitutionality, 
unintended consequences, separation of powers, and federalism issues--
all in a context of largely unprecedented circumstances.
    Other major policy areas facing Congress have also commanded multi-
disciplinary support from CRS experts, often on a confidential basis, 
and with the need for objectivity and independence from executive 
branch and outside interests. Notable examples of continuing, expert 
support relate to congressional efforts to ensure appropriate and 
effective U.S. engagement in Iraq, Afghanistan, Iran, and the broader 
Middle East; provide for emergency responses to Midwest flooding and 
Gulf-coast and Mid-Atlantic hurricanes and mitigate needs for future 
disaster responses; meet energy needs of the Nation with due 
consideration for both environmental imperatives and ongoing functions 
of the economy; improve the safety of food, drugs, and other products 
for American consumers; and limit undue influence of special interests 
in making and executing policy.
                         management initiatives
    The past year saw several successful initiatives aimed at making 
CRS a more efficient and effective organization and enhancing its value 
to the Congress.
Section Research Managers
    During the past year, CRS revamped its first-line management 
structure, hiring section research managers and integrating them into 
the management of the organization. They are working to ensure that the 
Service stays aligned to the legislative challenges facing the Congress 
through collaboration, multi-disciplinary research and analysis, and by 
fostering an energetic work environment. They have already succeeded in 
breaking down barriers that had at times impeded our ability to 
collaborate and effectively marshal our expertise. Their new thinking 
on ways to address issues on the legislative agenda and convey CRS's 
expertise to the Congress brings both immediate and long-term benefits. 
This corps of section research managers will also serve as a resource 
for management succession in CRS.
Professional Development Enhancement
    CRS developed enhanced performance standards for each position in 
the Service, as well as performance plans and individual development 
plans. This large undertaking involved a Service-wide coordinated 
effort and is part of a commitment to developing a continuous learning 
culture and to engage fully every individual in his or her own 
professional development. At the end of 2008, 76 percent of the staff 
had created and received supervisor approval of their individual 
development plans for the year.
Authoring and Publishing Reports
    CRS has implemented a new process for production and formatting of 
CRS research products, streamlining preparation, display, and 
maintenance of these products. CRS undertook this complex effort to 
create research products for the Congress that more efficiently support 
PDF and HTML distribution through the CRS website, standardize the 
presentation format using a uniform and consistent new product design, 
and facilitate more sophisticated use of graphics.
Tracking Inquiries from Congress
    CRS is in the final stages of configuring a new system to track and 
manage congressional requests from entry to completion. This entails 
customizing an off-the-shelf customer relations management tool. This 
system, known as Mercury, will replace the outdated Inquiry Status and 
Information System (ISIS) and includes additional features to increase 
responsiveness to congressional needs; support research management; 
foster collaboration among researchers; and identify Service-wide 
activity by issue area.
Redesign of the CRS Website
    CRS has developed a multiyear, phased plan to make CRS.gov more 
user-friendly and ensure that Congress has ready access to the full 
breadth and depth of our analytical and other services. Many 
congressional and CRS staff provided their views on the strengths and 
weaknesses of the current site and ideas for enhancements. These views 
helped to shape our final design. The initial effort this year will 
begin to provide better organization of material and a more intuitive 
navigation of the website.
                               conclusion
    In making our fiscal year 2010 budget request of $115,136,000, we 
are mindful of the formidable challenge you face in weighing budget 
requests in this period of difficult economic conditions. My managers 
and I have and will continue to examine every activity and program for 
efficiencies and eliminate costs where the return on investment is in 
question. This budget request will provide the resources needed for the 
talented and dedicated staff of CRS to continue to build on the unique 
tradition of providing comprehensive, non-partisan, confidential, 
authoritative, and objective analysis to the Congress. We are proud of 
our role, and we thank you for your support.
                                 ______
                                 
    Prepared Statement of Marybeth Peters, Register of Copyrights, 
                            Copyright Office
    Mr. Chairman, Ms. Murkowski, and other Members of the Subcommittee: 
Thank you for the opportunity to present the Copyright Office's fiscal 
2010 budget request. Today I would like speak with you about some of 
the work and challenges the Copyright Office faced in fiscal 2008. In 
addition, I would like to talk about the Office's Historic Records 
Project that was funded as part of the fiscal 2009 Budget and our 
request for additional offsetting authority to complete our Licensing 
Reengineering effort, which is part of the Copyright Office's portion 
of the Library's fiscal 2010 budget request.
                  highlights of copyright office work
Policy and Legal Activities
    On June 30, 2008, the Office presented its Report to Congress on 
the statutory licenses (Sections 111, 119, and 122 of the Copyright 
Act) that allow cable operators and satellite carriers to retransmit 
programming carried on over-the-broadcast television signals. The 
Report, which Congress requested as part of the Satellite Home Viewer 
Extension and Reauthorization Act of 2004, analyzed the differences in 
the terms and conditions of these statutory licenses and considered 
their continued necessity in light of changes in the marketplace over 
the last 30 years. The Report has served as the starting point for 
continuing discussions on legislation to extend the Section 119 
statutory license, which is set to expire on December 31, 2009, unless 
reauthorized by Congress. The Office is working with Senate Judiciary 
staff and stakeholders on proposed amendments to these licenses.
    The Office has worked closely with the Senate Judiciary Committee 
on other pressing copyright matters. One significant issue has been 
orphan works, i.e., the situation where a potential user cannot 
identify or locate the owner of copyrighted works (including literary 
works, photographs, motion pictures, sound recordings and other 
creative works). In April 2008, the Senate introduced the Shawn Bentley 
Orphan Works Act of 2008 (S. 2913) was introduced in the Senate, passed 
by unanimous consent on September 26, 2008. Due to several unresolved 
issues in the House, the Office expects to assist the House Judiciary 
staff on this subject in 2009.
    The Office has also worked with Judiciary Committee staff to 
develop legislation relating to the public performance right for sound 
recordings in Section 106 of the Copyright Act. The Performance Rights 
Act (S. 379), introduced in the 111th Congress, would amend the 
copyright law to expand the public performance right of sound recording 
copyright owners to include analog audio transmissions. This change 
would, for the first time, require over-the-air radio stations to make 
royalty payments to record companies and recording artists.
    Another issue that the Office will address in 2009 concerns the 
copyright treatment of pre-1972 sound recordings. The issue is 
complicated because these works were not eligible for Federal copyright 
protection before February 15, 1972; rather, they were governed by 
State law which, in many cases, is not well-defined. Pursuant to the 
Omnibus Appropriations Act of 2009, the Office has been directed by 
Congress to conduct a study on the desirability of, and means for, 
bringing sound recordings fixed before February 15, 1972, under Federal 
jurisdiction. The Office's report is due in March 2011.
    In 2008, the Copyright Office assisted Federal Government agencies 
with a number of multilateral, regional and bilateral negotiations and 
served on many U.S. delegations. Notable among these were meetings of 
the World Intellectual Property Organization's (WIPO's) General 
Assemblies and its Standing Committee on Copyright and Related Rights, 
negotiations regarding a proposed Anti-Counterfeiting Trade Agreement, 
and negotiations and meetings relating to intellectual property 
provisions of existing and proposed Free Trade Agreements. The Office 
also was a key advisor to the United States Trade Representative in a 
successful World Trade Organization (WTO) dispute settlement proceeding 
against China relating to intellectual property protection and 
enforcement in China. The Office expects to continue to play a leading 
role in the United States delegations to WIPO and in other multilateral 
and bilateral meetings and to advise other Federal agencies on 
international and domestic copyright law and policy matters.
    Last year, the Office assisted the Justice Department in a number 
of important court cases, including some involving constitutional 
challenges to various provisions of the Copyright Act.
    In addition to the Office's work on legal and policy issues, fiscal 
2008 was an exciting and challenging year for Copyright Office 
operations.
Reengineering Program
    At the end of fiscal 2007, the Copyright Office implemented its 
reengineering project: redesigned processes, initiation of hands-on 
training in new operations for the entire staff, established new 
organizations, launched a new integrated IT system to process 
registrations, and renovated facilities. In addition, on July 1, 2008, 
the online registration system Copyright Office (eCO) was released to 
the public through the Copyright Office website.
    The May 19, 2009 Washington Post article containing substantial 
errors, did highlight the paper application registration backlog issue 
we are facing. The article did not choose to discuss our continuing 
efforts to improve operations through staff retraining and realignment, 
technology system enhancements and reallocation of tasks.
    In February 2009 we completed the retraining for all Copyright 
Registration Specialists, and when compared to May 2008, their 
productivity per specialist has doubled. In April 2009, we completed 
the hiring of our first class of new Registration Specialists in over 2 
years. The new Specialists are in training and are already productive. 
Looking ahead we will maintain a continuous improvement initiative 
focused on identifying and implementing workflow and IT system 
improvements.
            Organization
    At the beginning of fiscal 2008, all staff had been reassigned or 
selected for new positions. Honoring the Register's commitment to 
ensure all Copyright staff had positions after reengineering, the 
Office continued its major program to retrain former examiners and 
catalogers to work in a combined position, Copyright Registration 
Specialist. The registration specialists use eCO and the redesigned 
registration process to: examine claims including any related 
correspondence, complete a registration record, and in many cases, make 
selections for the Library's collections. Training was conducted in 
house by Senior Registration Specialists. To date all Registration 
Specialists with us in August 2007 have received at least 1 full year 
of appropriate training and a full year of related experience in eCO. 
Training began in fiscal 2007, extended through 2008, and concluded in 
February 2009. Targeted training to meet individual employee needs is 
still provided. As more Registration Specialists completed training and 
achieved independence, the senior Registration Specialists who served 
as trainers were able to return to full time registration duties.
    During the initial implementation of reengineering, Copyright 
Office management announced a 1-year suspension of performance 
requirements, permitting staff sufficient time to gain the requisite 
training, familiarity, and experience with the new processes and IT 
system. In August, 2008, Office management and AFSCME Local 2910 (the 
Guild) representing the affected employees signed an agreement 
regarding implementation and impact of the new performance requirements 
As agreed, written performance requirements for individual employees 
went into effect October 1, 2008. Phased in following a 90-day grace 
period after each registration specialist reached his/her 1-year 
anniversary working in the new system, the performance requirements 
included a productivity rate of 2.5 claims opened per hour and 
qualitative benchmarks.
    With the implementation of new performance requirements, 
productivity rose in the second quarter of fiscal 2009. For 
Registration Specialists who are still within the 90-day grace period 
before the performance requirements take effect, the overall group 
average is 2.6 per hour. For Registration Specialists who have 
completed training and for whom the performance requirement is in 
force, the overall group average is approximately 3.0 per hour. This is 
double our hourly productivity from where we were in May 2008.
            Processes
    Through its continuous improvement initiative, the Office further 
refined the reengineered processes by examining workflows and support 
systems. On occasion, we adjusted and improved work processes or 
systems to enhance efficiencies. Throughout the year, we identified 
issues, developed alternative processes, and tested and implemented the 
best options. For example, realizing that missing or incorrect fees 
were slowing workflow in the Registration division, we shifted the fee 
resolution process to RAC, a much earlier step in the workflow. This 
improved the registration process time and resulted in a better balance 
of the staff's workload.
    We also examined how to improve eCO's responsiveness. By analyzing 
how eCO processed data, we were able to implement basic system 
redesigns, reducing user wait times.
            Information Technology
    The electronic Copyright Office system has two components: eCO 
Service, which supports online registration (e-Service) and enables 
processing of both electronic and hardcopy claim submissions; and eCO 
Search, which permits searching of more than 20 million registration 
records dating to 1978.
    The Office applies the continuous improvement concept to the 
ongoing refinement of eCO. Earlier this year the Copyright Technology 
Office restructured the Copyright Office's systems internal oversight 
board. The new board is comprised of Office processing divisions' 
supervisors and staff. The board is responsible for reviewing, 
evaluating, prioritizing and recommending proposed eCO system 
improvements. The board gives the employees directly involved with eCO 
a voice to suggest system improvements to enhance operations. To date, 
the Office has implemented a large number of incremental enhancements 
to improve system performance and functionality. As we continue to move 
into 2009, we expect the process will continue to be effective.
    In fiscal 2008, the Office initiated an eCO system Performance 
Improvement Project (eCO PIP) designed to optimize eCO performance and 
to develop short-and long-term recommendations for additional system 
improvements. Following the first round of optimization efforts, system 
performance improved by 50 percent.
    Electronic Submissions.--On July 1, 2008 the Office opened to the 
public eCO e-Service for basic claims, enabling users to submit via the 
Internet, copyright applications and certain classes of copyright 
deposits. Prior to July 2008, e-Service was opened under a limited-
access beta test. During the last quarter of fiscal 2008, the Office 
created 46,118 e-Service user accounts and processed 59,850 e-Service 
claims. Approximately 43,000 users charged copyright application fees 
to credit cards or bank accounts and the rest charged fees to existing 
deposit accounts. Users submitted approximately 35,000 electronic 
deposit copies; the remaining claims were submitted with hard copy 
deposits sent in by regular mail. By the end of fiscal 2008, 
approximately 72,500 individuals and organizations were registered e-
Service users. Electronic claims through e-Service now account for well 
over 50 percent of weekly copyright applications received.
    Form CO with 2-D Barcode.--On July 1, 2008, the Office released the 
new Form CO that incorporates two dimensional (2-D) barcode technology. 
The first Form CO submissions were received and processed in September. 
The forms, which are completed online, are intended for applicants who 
prefer not to transact business over the Internet. When printed out, 
each form has scannable 2-D barcodes which encode all the data entered 
in the form. When the Office scans the 2-D barcodes, all fields of the 
eCO record are populated automatically without the need for manual data 
entry.
Registration of Copyright Claims, Recordation of Documents, and Deposit 
        of Copies of Copyrighted Works
    During fiscal 2008, the Copyright Office received 561,428 copyright 
claims covering more than 1 million works. Of the claims received, 
232,907 were registered and 526,508 copies of registered and 
unregistered works valued at $24 million were transferred to the 
Library of Congress for its collections and exchange programs. The 
Office recorded 11,341 documents which included more than 330,000 
titles of works.
    There were 231,000 claims in process in eCO 1 year ago; today there 
are approximately 500,000. The number of copyright claims received in 
fiscal 2008 is comparable to previous years, but the Office registered 
fewer than half the number of claims compared to previous years and 
transferred fewer than half the typical annual number of deposit copies 
to the Library. These reductions are reflective of the significant 
challenges the Office faced in the wake of reengineering 
implementation. There were a number of contributing factors.
  --As mentioned earlier, Registration Specialists required extensive 
        training in new processes and the use of eCO. This training 
        impacted productivity in multiple ways: first senior 
        registration specialist needed to learn the system then the 
        senior specialists needed to train junior staff. In effect, the 
        first few months of fiscal 2008, production was significantly 
        limited.
  --The Office implemented eCO in August 2007, with electronic claims 
        processing officially opening almost a year later. Processing 
        paper claims electronically proved to be more difficult than 
        originally anticipated, with Optical Character Recognition 
        (OCR) technology being less successful than expected. The paper 
        claims became labor intensive requiring manual data entry into 
        the eCO system before the claim could be examined. Combined 
        with staff retraining, slow processing of paper claims was a 
        contributing factor to the build-up of claims on hand in fiscal 
        2008. Public acceptance of e-Service filing, 2-D barcode 
        technology and a fully-trained staff have helped us overcome 
        these issues.
  --Some large submitters have been slow to adopt electronic filing; 
        however, there is a strong indication that in the very near 
        future more will move to e-Service.
  --As with any large-scale IT implementation, eCO underwent 
        adjustments for usability, efficiency, and stability. The 
        Office has largely resolved the issues.
  --Although the Office lost registration specialists through normal 
        attrition, to focus training efforts on existing staff, 
        management made the decision to hold new hiring until 2009. 
        While the decision was necessary, it lead to a temporary 
        staffing shortage, adversely affected production. As April 
        2009, all Registration Specialists positions are filled.
    The Office has taken a number of steps to improve processing time 
and reduce the number of claims on hand. Subsequently, the production 
trends are very positive in a number of areas.
  --Large bottlenecks of unprocessed works received in the mail have 
        been reduced, by more than 65 percent.
  --Paper applications awaiting data entry into eCO have been reduced 
        by more than 85 percent: from a high of 34,000 to under 5,000.
  --Unprocessed check batches were reduced from a 6-week lag to real-
        time processing.
  --During fiscal 2008, we closed approximately 40 percent of submitted 
        claims. To date through fiscal 2009, we are at 60 percent 
        closed claims.
  --As mentioned earlier, training has concluded for all Registration 
        Specialists who were on board as of August 2007. As a result, 
        registration specialist productivity increased across the board 
        to double that of 1 year ago.
  --As more Registration Specialists become fully independent, the 
        number of staff requiring quality assurance reviews of their 
        work declines, allowing Senior Registration Specialists, 
        currently responsible for quality assurance reviews, to focus 
        more time on processing claims.
  --The Office recently appointed two new registration specialists in 
        the Visual Arts and Recordation Division and seven new 
        registration specialists in the Performing Arts Division. On 
        April 27, eight new registration specialists started in the 
        Literary Division. These actions address the short staffing 
        situation that contributed to low production and growth in the 
        volume of claims in process.
  --The eCO e-Service online registration system was released to the 
        public on July 1, 2008. By the end of fiscal 2008, e-filings 
        reached almost 50 percent of all claims entered. The percentage 
        for fiscal 2009 thus far has been 53 percent. As the volume of 
        e-Service claims increases the volume of paper claims 
        decreases, which has a favorable effect on productivity.
  --Registration Specialists have been freed from activities that 
        detracted from reducing the number of claims in process:
    --The Office established a quality assurance program targeting data 
            entry errors during the process of manually keying data 
            from scanned paper applications into electronic records. 
            This action reduced the time spent by Registration 
            Specialists correcting data entry errors.
    --The Office began identifying and routing claims with fee problems 
            to the Accounts Section earlier in the production process. 
            This action dramatically reduced the volume of 
            correspondence that Registration Specialists were required 
            to generate in response to short fees and other fee-related 
            problems.
    The volume of paper claims on hand will continue to affect 
processing times until actions already taken or planned by the Office--
eliminating the short staffing in the Registration Divisions, achieving 
a fully trained staff, implementing strategies to attract more filers 
to eCO, and upgrading to the newest version of the software application 
that powers eCO--have taken full effect.
    Thus far in fiscal 2009 the Office is experiencing a downturn in 
the number of claims received, which we believe is related to the 
current economic environment. At this time, projections indicate a 
possible fiscal 2009 decline in copyright claims of somewhat over 5 
percent compared with fiscal 2008. The Office is taking a cautious 
approach to managing the fiscal 2009 budget to ensure that we remain 
within the forecasted revenue base.
Copyright Records Digitization Project
    In July 2008, the Copyright Office initiated a study to determine 
how to approach the digitization of its 70 million pre-1978 copyright 
records, many of which are sole copy records. The Office is now ready 
to move beyond the initial planning stages of the project. The 
objectives of the project are to:
  --Provide online access to records of copyright ownership for the 
        years from 1923 to 1977 inclusive.
  --Provide online indexes as a finding aid to these records.
  --Create preservation copies of the paper records of copyright 
        ownership dating back to 1870.
  --Move from microfilm to online digital records.
    Earlier this year the Office issued a Request for Information (RFI) 
targeting vendors with expertise in records digitization. The Office 
received and reviewed 21 responses to the RFI. In fiscal 2009, we 
intend to initiate a pilot test of several options for digitization 
across a representative sample of the copyright record types and 
formats. Based on the pilot test, we will determine the best 
alternative and begin full production digitization in fiscal 2010. The 
project's duration may extend over several years as necessary based on 
funding availability. However, the plan also calls for flexibility 
allowing us to seek out partnering opportunities that may both reduce 
the digitization cost and shorten the project's duration.
Licensing Reengineering
    In fiscal 2009, the Licensing Division resumed its reengineering 
efforts, reviewing its current administrative practices and underlying 
technology, performing a needs analysis for future operations, and 
beginning to design its re-engineered systems. The goals of this 
reengineering effort are to decrease statement of account processing 
times by 30 percent or more and to improve public access to Office 
records. The estimated $1.1 million cost of re-engineering will be 
assessed against royalty funds as soon as the Office is granted the 
authority to do so. Fiscal 2010 will be challenging for the Licensing 
Division. The IT system design and implementation must go forward even 
as changes to the copyright law, particularly 111 and 119, are being 
considered. Licensing Division staff may also be forced to work through 
statements of account using the old processing system as the new system 
is piloted.
Conclusion
    Mr. Chairman, I ask you to support the fiscal 2010 budget request 
including the request for additional offsetting authority to complete 
the Licensing Reengineering efforts. Fiscal 2008 was a transitional 
year for the Office; we are hopeful that the measures we implement in 
fiscal 2009 will help us to overcome many of the reengineering 
challenges.
    I also want to thank the Congress for its past support of the 
Copyright Office reengineering efforts and our budget requests.

    Senator Nelson. Ambassador O'Keefe.
STATEMENT OF AMBASSADOR JOHN O'KEEFE, EXECUTIVE 
            DIRECTOR, OPEN WORLD LEADERSHIP CENTER
    Ambassador O'Keefe. Thank you, sir.
    Mr. Chairman, Ranking Member Murkowski, thank you for the 
opportunity to testify on the Open World Leadership Center's 
fiscal year 2010 budget.
    As the Center's Open World program matures, we see its 
growing significance for both the American communities and 
organizations that make it successful and for the participating 
young leaders from countries of strategic interest to the 
United States.
    With me today is our chairman, Dr. Billington, who, 10 
years ago, proposed what Under Secretary of State for Political 
Affairs William Burns has said is the most effective exchange 
program of the many he was involved with. In 1999, with strong 
bipartisan support from Congress, Dr. Billington, Russian 
academician Dmitry Likhachev, and then-Ambassador to Russia 
James Collins brought forward a leadership exchange program 
that has benefited both the United States and new countries 
born from the breakup of the Soviet Union.
    Thanks to Open World, there are scores of Russian 
nonproliferation experts who now know their American 
counterparts and have a greater sense of joint purpose. There 
are anti-human trafficking advocates and officials in Ukraine 
who have a better understanding of how to track down 
perpetrators of this crime and assist their victims. And there 
are mayors and city councilors in Moldova and Azerbaijan who 
are making local governments more open and responsive to 
ordinary citizens.
    In reviewing this legislative branch agency's effectiveness 
over the years and our successful expansion beyond our original 
focus country of Russia to Ukraine, Moldova, the Caucasus, and 
central Asia, I must give credit to our dedicated staff, the 
partner host organizations, and volunteer experts and home 
hosts across the United States. I am honored to serve a program 
with such broad support in U.S. communities and in countries 
where we operate.

                BROAD DISTRIBUTION OF HOSTING IN U.S.A.

    In 2008, we have sent delegates to 355 communities in 44 
States. Seven hundred fifty American families home hosted these 
first-time visitors to the United States. We will attain that 
same broad geographic distribution in our hosting program this 
year.
    My main disappointment lies in not accommodating all those 
in the United States who wish to be part of Open World. We have 
more than twice the number of organizations that want to engage 
with us than we have participant slots available.
    Our request this year reflects the revised strategic goals 
approved by our board recently. The original plan called for a 
20 percent expansion between fiscal years 2007 and 2011.
    Even with economies of scale, gifts, and our cost 
reductions, such a goal would require a substantial budget 
increase, which the board believed was not feasible at this 
time. Therefore, our request of $14.456 million is a modest 4 
percent increase. This amount will support expansion to Armenia 
in 2010, as well as other programs.
    We have been good stewards of the funds you have given us. 
Our overhead is 7.1 percent, and for 3 consecutive years, we 
have received clean audits. This year, the auditor had no 
comments, no findings, and no discussion points, which is 
amazing, for those of you who are familiar with audits.

                           PREPARED STATEMENT

    Open World's board and its hosting partners throughout the 
United States have created a powerful tool for Congress and our 
Nation to forge human links to the vast and strategically 
important heartland of Eurasia. I seek your support to continue 
our efforts in the next fiscal year.
    Thank you for your attention.
    Senator Nelson. Thank you very much.
    [The statement follows:]
                   Prepared Statement of John O'Keefe
    Mr. Chairman, Ranking Member Murkowski, Senator Pryor, and Senator 
Tester, I appreciate the opportunity to present testimony on the Open 
World Leadership Center's budget request for fiscal year 2010. The Open 
World Leadership Center, of which I am the Executive Director, conducts 
one of the largest U.S. exchange programs for Eurasia, through which 
some 6,100 volunteer American families in all 50 States have hosted 
thousands of emerging leaders from former Soviet countries. All of us 
at Open World are very grateful for Congress's continued support and 
for Congressional participation in the Program and on our governing 
board. We look forward to working with you on the future of Open World.
    Last year, American volunteers in 44 States and 202 Congressional 
Districts home hosted Open World participants, contributing a large 
portion of the approximately $1.8 million given to the Program in the 
form of cost shares--an amount equal to 20 percent of the Center's 
fiscal year 2008 appropriation. Even though Open World is an 
international exchange program, more than 75 percent of Open World's 
fiscal year 2008 appropriated funds were expended on U.S. goods and 
services through contracts and grants.
    More than 14,000 emerging leaders from Russia, Ukraine, Azerbaijan, 
Georgia, Kyrgyzstan, Moldova, Tajikistan, Turkmenistan, Lithuania, and 
Uzbekistan have participated in Open World. Significantly, more than 48 
million Muslims reside in countries where Open World is active, and 
these countries have approximately 2,000 miles of shared borders with 
Iran and Afghanistan.
    In fiscal year 2008, Open World had a 35 percent reduction in 
appropriated funds, which would have translated into an estimated 37 
percent reduction in grants to U.S. organizations. However, through 
cost shares, staff cuts, contract terminations, an interagency 
transfer, and withdrawals from Open World trust fund reserves, the 
Center was able to maintain the quality of the Program and the number 
of participants at levels consistent with prior-year averages.
    The Center's budget request of $14.456 million for fiscal year 2010 
is a modest 4 percent increase over the fiscal year 2009 level of $13.9 
million, even though the cost of the logistical services contract will 
rise 6 percent. We will close this gap and maintain a participant 
hosting level of 1,400 through additional cost shares, with a portion 
coming from our partners abroad. We estimate that, as occurred with our 
fiscal year 2008 appropriation, more than 75 percent of the 
appropriated funds will be spent on U.S. goods and services, including 
$4.16 million in direct grants to American host organizations. The 
funds will allow thousands of Americans throughout the United States 
and their counterparts abroad to generate hundreds of new projects and 
partnerships and other concrete results.
                     open world cost-share efforts
    The Center actively seeks a wide range of partners to diversify 
funding and strengthen the Open World Program. In 2008, the Center 
received interagency funding and direct contributions totaling over 
$900,000. Cost shares, mainly from American grantees and hosts, added 
an estimated $1.8 million. We received pledges of $950,000 as gifts 
(for a 3-year period) directed to programs not supported by 
appropriated funds. These pledges include a $500,000 commitment (to be 
spent over 3 years) for our alumni program from Open World Trustee 
George Argyros, and $450,000 (to be spent over 3 years to host health 
and education leaders from the Republic of Buryatia) from Senator 
Vitaliy Malkin of the Russian Parliament. To date, we have received 
$482,000 of the $950,000 pledged.
    An interagency transfer of $530,000 from the National Endowment for 
the Arts (NEA) to support all the hosting costs of the Russian Cultural 
Leaders Program represented a 6 percent increase over NEA transfers in 
previous years.
    In 2007, the Center initiated a cost-share reporting requirement 
for all grantees in an effort to track the generous in-kind support 
that they and local hosts provide to the Open World Program. The 
Program received an estimated $1.75 million in donated goods and 
services from hosts and grantees in 2007--equal to 13 percent of the 
Center's fiscal year 2007 appropriation. We expect to see a higher 
share for 2008 when the cumulative figures become available later this 
spring.
    The Open World alumni program is paid for exclusively with 
nonappropriated funds. Open World has actively sought in-kind 
opportunities and cost shares in this area as well.
    Numerous U.S. judges and legal professionals involved with Open 
World exchanges make independently financed reciprocal trips to meet 
with program alumni. In 2008, 61 American jurists involved with Open 
World's rule of law program made such reciprocal working visits to Open 
World program countries. Reciprocal visits with alumni help fulfill 
Open World's mission of strengthening peer-to-peer ties and 
partnerships.
                        open world and congress
    As a U.S. Legislative Branch entity, the Open World Leadership 
Center seeks to link Congress's foreign policy interests with citizen 
diplomacy. The Program proactively involves Members of Congress in its 
programming and strives to make this programming responsive to 
Congressional priorities. In 2008, nearly one out of four (353) Open 
World participants met with Members of Congress and Congressional 
staff, either in Washington, D.C., or in the Members' constituencies.
    A majority of the trustees on the Center's governing board are 
current or former Members of Congress. The Center also regularly 
consults with the House Democracy Assistance Commission (HDAC), the 
Commission on Security and Cooperation in Europe, the Congressional 
Georgia Caucus, the Congressional Ukrainian Caucus, other Congressional 
entities, and individual Members with specific interests in Open World 
countries or thematic areas. Moreover, in 2008, for the first time, the 
Center partnered with HDAC to provide Open World programming to three 
Ukrainian and six Georgian parliamentary staffers. The Center hopes to 
build on this partnership and to continue its success in the coming 
years.
                          measures of success
    The Open World Leadership Center tracks the results of the Open 
World Program using eight categories, or ``bins,'' such as partnerships 
with Americans, alumni projects inspired by the Open World experience, 
and benefits to Americans. Since launching a results database in August 
2007, Open World has identified more than 2,000 results (see attached 
Results Chart). Some representative results are:
  --A Russian alumna was one of seven recipients of the Secretary of 
        State's 2009 International Women of Courage Awards. Accompanied 
        by First Lady Michelle Obama, Secretary Clinton praised the 
        alumna for her ``stalwart leadership in seeking justice for the 
        families of bereaved [military] service members.''
  --Ukrainian alumna Anzhela Lytvenenko and her organization Successful 
        Woman won a $15,000 Democracy Grant for a project to improve 
        government/NGO cooperation on human-trafficking prevention in 
        Ukraine's Kherson Region.
  --An Azerbaijani alumnus designed a brochure for recruiting citizen 
        election monitors based on a form for enlisting campaign 
        volunteers that he obtained from Representative John Sarbanes 
        (MD) during an April 2008 Open World visit to the Baltimore 
        area.
  --Open World host and Atlanta-Tbilisi (Georgia) Sister City Committee 
        Chairman John Hall partnered with alumni in Tbilisi to organize 
        an economic summit in Atlanta in December 2008.
               open world 2010 plans and 2009 activities
    In 2010, Open World will carry out the goals of the recently 
revised Strategic Plan (2007-2011) as approved by the Board of 
Trustees, focusing on quality control of nominations and U.S. programs. 
We plan to expand to at least one additional country (Armenia), and we 
will continue our effort to diversify our funding. We will add more 
delegates from Central Asia and the Caucasus while proportionally 
reducing the number of Russian delegates.
    We will host additional members of the national legislatures of 
Open World countries located in Central Asia and the Caucasus, based on 
reports of the effectiveness of Open World parliamentary hosting 
received from the U.S. Embassies. The Center will also continue the 
rule of law programs for participating countries where we are finding 
substantial cooperation and movement toward an independent judiciary. 
We will foster sister states/sister cities programs in many locations 
in the United States, and broaden efforts in the cultural field, where, 
through our Russian Cultural Leaders Program, we have, for example, 
benefited museums in the Midwest thanks to our partnerships with the 
Likhachev Foundation and the American-Russian Cultural Cooperation 
Foundation.
    In cooperation with the Department of State, we plan to intensify 
our work with women leaders. With funding in 2010 at the requested 
level, Open World will continue to share America's democratic processes 
and institutions, send about 1,400 participants to homes throughout the 
United States, and spread a wealth of American experiences to borders 
beyond our own.
    For 2009, Open World continues to host in thematic areas that 
advance U.S. national interests, generate concrete results, and support 
U.S. organizations and communities engaged in these thematic areas. 
This programming emphasizes and builds on Open World's incremental 
successes in the fields of governance (emphasizing the legislative 
branch's role in helping to bring about good governance and affecting 
public policy), the rule of law, human-trafficking prevention and 
prosecution, environmental issues, and ecotourism. This year Open World 
will also increase its non-Russian programming to approximately 45 
percent of its total programming (up from 36 percent in 2008 and 23 
percent in 2007).
    Demonstrating Open World's commitment to supporting existing 
partnerships and initiatives, an estimated 70 Open World hosting 
programs (31 percent of all 2009 programming) will be conducted by 
Americans with established partnerships in Open World countries. For 
example:
  --Freedom House, a nonprofit, nonpartisan organization that serves as 
        a voice for democracy and freedom, will host accountable 
        governance delegates from Kharkiv, Ukraine, in their U.S. 
        sister city of Cincinnati.
  --Building on a 15-year-old relationship between Maryland and 
        Russia's Leningrad Region, the Office of the Secretary of State 
        of Maryland will host an accountable governance delegation from 
        the Leningrad/St. Petersburg area in 2009.
  --In the area of human trafficking, one of Open World's veteran 
        grantees, the Terrorism, Transnational Crime and Corruption 
        Center, will be hosting some of their Russian partners and 
        colleagues on a program focused on combating child exploitation 
        and trafficking.
    Turning to post-visit initiatives for alumni, the Center plans, 
using private funds, to host two results-oriented 1- or 2-day thematic 
workshops in Russia, one of which will highlight Open World's 
nonproliferation program. Another 23 or so half-day events will be held 
in Russia and other Open World countries on topics proposed by alumni.
                     open world and shared funding
    In response to the language of the Omnibus Appropriations Act, 2009 
(Public Law 111-8), Chairman Billington and I have met twice with 
senior officials of the Department of State and with officials from the 
Administrative Office of the U.S. Courts to discuss shared funding. The 
Center has also discussed cost-share arrangements with the Russian 
Supreme Commercial Court. The Court has tentatively agreed to share the 
cost of bringing Russian commercial court judges to the United States 
on Open World for hosting by American judges. We remain committed to 
working with the Subcommittee and our Board of Trustees to pursue any 
alternative sources of funding, and we will report back on our findings 
by no later than May 30, 2009.
                    fiscal year 2010 budget request
    The Center's budget request of $14.456 million for fiscal year 2010 
is a 4 percent increase over the fiscal year 2009 request of $13.9 
million. Funding at this level will enable the Center to continue its 
proven mission of hosting young political, civic, and cultural leaders 
from Russia; maintain its important program for Ukraine; and continue 
smaller but growing programs in the Caucasus and Central Asia. The 
Board of Trustees believes that maintaining a robust grassroots-based 
Open World presence in Russia is necessary and important for future 
U.S.-Russia relations, but programs in expansion countries continue to 
account for a larger percentage of hosting than in the past.
    The budget request maintains hosting and other programmatic 
activities at a level of approximately 1,400 total participants, which 
remains far below the limit of 3,000 set in the Center's authorizing 
legislation. Actual allocations of participant slots to individual 
countries will be based on Board of Trustees recommendations and 
consultations with the Subcommittee and U.S. Embassies. The requested 
funding support is also needed for higher salary costs in fiscal year 
2010, as well as for increased logistical costs due to higher airfares 
and less favorable exchange rates
    Major categories of requested funding are:
  --Personnel Compensation and Benefits and other operating expenses 
        ($1.43 million)
  --Contracts ($8.86 million--awarded to U.S.-based entities)
  --Grants ($4.16 million--awarded to U.S. host organizations)
    The Center also requests Subcommittee approval of an amendment to 
its statute. This proposed amendment will enable the Center to improve 
the Open World Program's administration and to build upon its 
successful civic and cultural exchange programs by encouraging 
interaction with and among program alumni, and by extending the 
cultural program to new countries if approved by the Board.
                               conclusion
    State Department Under Secretary for Political Affairs William 
Burns said that Open World is the most effective exchange program of 
the many he was involved with while serving as ambassador to Russia 
and, earlier, as assistant secretary in the Bureau of Near Eastern 
Affairs. While Open World's results are often measured in quantitative 
terms, the Program has a profound impact that is captured in anecdotes 
and qualitative feedback from participants. The editor of a major 
Russian regional newspaper told his readers in a post-visit article 
that, after his Open World program in New Hampshire, he saw no basis 
for any future U.S.-Russia conflict (Volna, January 29, 2008). An 
alumna who sits on a Russian regional supreme court wrote an e-mail to 
Open World organizers stating: ``I can say unequivocally that the [Open 
World] visit not only changed my view of the Russian Federation's 
judicial system, but also brought about an overall change in my 
worldview as a whole.''
    Funding the 2010 Open World Program at the requested level will 
allow Americans in hundreds of Congressional Districts throughout the 
United States to engage up-and-coming Eurasian political and civic 
leaders--such as parliamentarians, environmentalists, and anti-human 
trafficking activists--in projects and ongoing partnerships. Americans 
will, once again, open their doors and give generously to help sustain 
this successful Congressional program that focuses on a region of 
renewed interest to U.S. foreign policy.
    The fiscal year 2010 budget request will enable the Open World 
Leadership Center to continue making major contributions to an 
understanding of democracy, civil society, and free enterprise in 
countries of vital importance to the Congress and the Nation. The 
Subcommittee's interest and support have been essential ingredients in 
Open World's success.
   open world proposed amendments for fiscal year 2010 budget request

SEC. ____. OPEN WORLD LEADERSHIP CENTER UPDATE.

    (a) Short Title.--This section may be cited as the ``Open World 
Leadership Center Update Act of 2009''.
    (b) ``Act'' Defined.--In this section, the ``Act'' means section 
313 of the Legislative Branch Appropriations Act, 2001 (Pub. L. 106-554 
1(a)(2) [H.R. 5657], 2 U.S.C. 1151) as amended by the Legislative 
Branch Appropriations Act, 2003 (Pub. L. 108-7, div. H, title I, 
Sec. 1401(a)), the Legislative Branch Appropriations Act, 2005 (Pub. L. 
108-447, div. G, title I, Sec. 1501) and the Emergency Supplemental 
Appropriations Act for Defense, the Global War on Terror and Tsunami 
Relief, 2005 (Pub. L. 109-13, div. A, title III, Sec. 3402(b)).
    (c) Board Membership.--The Act is amended in subsection (a)--
            (1) in paragraph (2)(A) by striking ``members'' and 
        inserting ``Members of the House of Representatives''; and
            (2) in paragraph (2)(B) by striking ``members'' and 
        inserting ``Senators''.
    (d) Extension of the Cultural Program to Eligible Foreign States, 
and Alumni Program.--The Act is amended in subsection (b) in paragraph 
(1)--
            (1) by striking ``cultural leaders of Russia'' and 
        inserting ``cultural leaders of eligible foreign states''; and
            (2) by adding the following sentence at the end: ``The 
        Center may also engage with program alumni in educational and 
        professional development activities in eligible foreign 
        states.''
    (e) Grant Program.--The Act is amended in subsection (b) in 
paragraph (2)--
            (1) by inserting ``and in eligible foreign states'' after 
        ``United States''; and
            (2) by adding the following new sentence at the end: ``The 
        Center may also award grants to program alumni in eligible 
        foreign states to carry out activities directly related to 
        their experience during their Open World visits to the United 
        States.''
    (f) Use of Funds.--The Act is amended in subsection (b) in 
paragraph (3)(C)--
            (1) by striking ``Grant funds'' and inserting ``Funds'';
            (2) by striking ``and'' at the end of item (ii);
            (3) by adding a new item (iii): ``the costs of program 
        activities conducted with program alumni in eligible foreign 
        states; and''; and
            (4) by renumbering item (iii) to ``(iv)''.
    (g) Executive Director.--The Act is amended in subsection (d) in 
the first sentence by striking ``The Board shall appoint'' and 
inserting ``On behalf of the Board, the Librarian of Congress shall 
appoint''.
    (h) Reemployment of Annuitants.--The Act is amended in subsection 
(e) by adding the following new paragraph (3)--
            ''(3) Notwithstanding the provisions of section 4064 of 
        title 22, United States Code, at the direction of the Board and 
        consistent with the authority provided to legislative branch 
        officials under sections 8344 and 8468 of title 5, United 
        States Code, the Librarian may grant waivers of annuity 
        restrictions upon reemployment of annuitants in Center 
        positions.''
    (i) Effective Date.--The amendment made by this section shall be 
effective on the date of enactment of this Act and shall remain in 
effect for fiscal year 2010 and fiscal years thereafter.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                           COPYRIGHT BACKLOG

    Senator Nelson. Dr. Billington, regarding copyright, I 
understand that after a fairly significant investment of 
taxpayer dollars, the new $52 million electronic copyright 
registration system is experiencing some challenges and that 
there is a significant backlog in requests for copyrights. In 
fact, according to a May 19 Washington Post article, since 
implementing the new system, the time to process a copyright 
has tripled, growing from 6 to 18 months with further delays 
expected.
    First of all, do we know what our current backlog is and 
what we might be doing and what we can do to overcome this 
situation?
    Dr. Billington. Well, Mr. Chairman, we realize that there 
is an ignorant truth regarding this issue. We are, of course, 
in the process of transforming from a paper-based system to an 
electronic system. And already 53 percent of the claims come in 
the electronic mode. We expect that to increase by about 80 
percent by fiscal 2011, so the time required to complete a 
copyright claim will diminish.
    We have thoroughly briefed the subcommittee staff on the 
extensive program that the Register has developed to deal with 
the 8-month delay in the paper claims. Part of the problem is 
the time required to track new registration specialists. They 
have now accelerated that. They have taken other steps to 
improve operations, including key entry quality assurance.
    In the last 4 months they have hired 17 new people. In the 
last 2 years they retrained the entire staff. But it isn't 
simply a simple matter of retraining. It is a matter of 
retraining both on a new system and new processes. That has 
been completed. Seventeen new registration specialists are 
already processing registrations. We expect some improvement.
    Perhaps the Register--if you want more detail, we could 
give it to you now, or we could provide you with detailed 
account from the Register herself, Marybeth Peters, who is I 
believe----
    Ms. Peters. Right here.
    Dr. Billington. Yes. Would you like more detail on this? We 
are certainly conscious of it, and it is a serious problem. The 
total reengineering of the copyright processes was accomplished 
on time and was as we had scheduled it. But as with other 
reengineering projects of massive scope, it comes with 
challenges.
    We could provide you a detailed plan how we are doing with 
this and the progress that has been made for the record, if 
that would----
    Senator Nelson. That would be helpful. And as part of that 
for the record, if you would help us understand how you might 
keep from incurring additional costs in smoothing the process 
to get on track?
    Dr. Billington. All right. Do you want to hear that now, or 
should we provide that for the record?
    Senator Nelson. Oh, no. For the record.
    Dr. Billington. Yes, sir. We would be glad to.
    Senator Nelson. Thank you.
    [The information follows:]

    The total cost of the Copyright Office's business process 
reengineering project was approximately $48.8 million, of which $15.5 
million was spent on the development of a new electronic Copyright 
Office registration system, or eCO. As of June 14, 2009, the number of 
claims in various stages of processing in eCO (including an estimated 
count of the most recently received unopened/unprocessed mail receipts) 
was 535,288. The accumulation of such a large number of claims in 
process is a result of relatively low production following 
reengineering implementation. Low production was caused by there being 
insufficient staffing in the key areas of registration, information 
technology, and in-processing; a massive training effort involving the 
majority of staff necessitated by the substantially new positions that 
were created as part of the reengineering effort and implementation of 
the new IT system; and processing bottlenecks caused by new operations 
needing further refinement.
    In response to these issues, the Office has taken the following 
actions:
  --From late 2008 through the end of April 2009, the Office hired a 
        total of 17 new Registration Specialists (a nearly 20 percent 
        increase in the number of Registration Specialists on staff), 
        and the new hires are already reviewing claims as part of an 
        accelerated training program. In addition, the Copyright 
        Technology Office is preparing to fill several new positions, 
        to bring in the expertise needed for its expanded role in the 
        Office's processing operations; and the Receipt, Analysis and 
        Control Division is also preparing to hire additional staff in 
        the In-Processing Section.
  --In accordance with an agreement negotiated with AFSCME Local 2910, 
        the union representing employees in professional job series, 
        all registration employees were given 1 year of training and an 
        additional 90 days to reach written performance requirements. 
        As of February 2009, all employees completed a minimum of 1 
        year of hands-on training working in the reengineered 
        processing environment, and the additional 90 day period pushed 
        the effective date of the performance requirements into May 
        2009. In cases where employees are still operating below the 
        minimum performance level, additional training continues.
  --Through a continuous improvement program, the Office has initiated 
        workflow adjustments to achieve more efficient processing. For 
        instance, a change to the dispatch procedures whereby the time-
        consuming task of wanding deposit copies to portable 
        receptacles was dropped, resulting in a significant increase in 
        the volume of copyright deposits dispatched each week and 
        freeing Registration Specialists to spend more time registering 
        claims.
  --Incremental enhancements to the IT system, based on feedback from 
        internal and external users, have also improved productivity in 
        the registration area and provided for a better eCO experience 
        for remitters. Examples of enhancements to the IT system 
        include developing better sorting and searching capability in 
        the Registration Specialist's active cases queue so that staff 
        can better organize and monitor pending cases; and extending 
        the maximum time available for uploading electronic files from 
        30 to 60 minutes for a single session, which provides remitters 
        greater capability to submit large digital files.

                   TECHNOLOGY INFRASTRUCTURE UPGRADES

    Senator Nelson. In your opening statement, you mentioned 
your fiscal year 2010 request includes approximately a total of 
$20 million for technology infrastructure upgrades for the 
Library, and a $20 million increase is very difficult to 
accomplish in the current fiscal environment. So my question is 
could this project be funded incrementally over the next, say, 
3 to 4 years to flatten down the cost expense of any particular 
1 year so as not to bust the budget, if you will?
    Dr. Billington. Well, I think probably some adjustment 
could be made there, but this is not just a one-time 
investment.
    Senator Nelson. No, no. I know that.
    Dr. Billington. I think in terms of stretching it out a 
little bit, sure, we would be happy to discuss that with you. 
By taking an incremental approach, we have been able to learn 
from our experience. We haven't invested in the technology 
infrastructure for 10 years now, but at this point, we have 
really a lot of deferred maintenance, a lot of catch-up to do 
with the systems.

                  THE CHALLENGE OF RISING EXPECTATIONS

    We are somewhat the victims of our own success, having put 
15.3 million items--primary documents of American history--
online, mostly with private money that we were able to raise 
for that purpose. We now find that with the World Digital 
Library there are enormous expectations, and the educational 
impact and usage also are multiplying. The number of States 
that are setting up programs through the Library for training 
teachers and the educational use of the Internet is increasing.
    So the burden is very, very heavy, and we really have, I 
think, enhanced our programs with the addition of the new 
electronic offerings. By the way, 10 days ago I was in Russia. 
The new library system that they have opened in St. Petersburg, 
which has considerable promise, has borrowed many of the 
electronic features that we now offer, even working with the 
same American contractors that we have used.
    This system will greatly increase the demands made by 
Americans all over the country to use Library of Congress 
content for educational purposes. We have to address our search 
and discovery capabilities, which were established a long time 
ago but need to be updated.
    Anyhow, we could certainly discuss this matter with your 
staff and with you.
    Ms. Jenkins. I was just going to say that same thing.
    Dr. Billington. Does anybody want to add to that? I think 
the point is to have an integrated information architecture 
that can be upgraded, can be developed to accommodate the 
unpredictable new demands that will be made.
    Incidentally, in addition to this, there is a request for 
GLIN funding, for the Global Library Information Network, whose 
usage has increased 400 percent just this last year. There are 
also requests for the legislative information system, involving 
all of the legislative branch agencies for which we have 
special responsibility, as well as to enhance the Congressional 
Research Service (CRS) capacity.
    So this is a Library-wide business, and it is a question of 
establishing a platform for the whole thing now that we have 
pretty much a full picture of what we are going to do. We see 
the demand for it. But we would be happy to work with you to 
try to stretch this out a little bit. I do want to caution that 
it can't be stretched out too much because we have already 
stretched programs out for 10 years.
    We financed a lot of this because we were saving money by 
downgrading our mainframe legacy system, and we diverted funds 
that might have been used for that as we went along. But that 
really wasn't adequate, and we now think we have done a 
definitive analysis of needs. And we will follow through in 
various organizational ways to make sure that this does deliver 
an integrated system, which will make it possible for us to 
upgrade with efficiency. There is another approach that many 
Government agencies and others use, and that is to come up with 
an ideal system that addresses specific requirements.
    But when you have an ideal system, things keep changing. We 
are now trying to fix it so that we are on a solid basis for 
future growth and won't have to keep coming back periodically 
for anything quite as dramatic as this.
    Senator Nelson. We appreciate that, and we will be happy to 
work with you, see what we can do over a rational, reasonable, 
appropriate period of time.
    Thank you very much.
    Dr. Billington. Thank you.

                         OVERSEAS FIELD OFFICES

    Senator Nelson. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. Billington, let me ask you about the overseas field 
offices. I understand that there are six different field 
offices located in our U.S. Embassies in Jakarta, Rio de 
Janeiro, Cairo, New Delhi, Nairobi, and Islamabad. And it is my 
understanding that they were originally established to acquire 
materials in parts of the world that lacked a mature and 
reliable book trade.
    The annual cost of operating these field offices is about 
$15 million, and I know that there have been questions directed 
to you as to whether there may be more cost-effective ways of 
acquiring the publications that the Library gets through these 
field offices. I understand that there is a study under way 
that GAO had recommended to look specifically at this.
    Can you give me an update as to where that study is and to 
what extent the study is looking at other means that we might 
be able to acquire this type of information short of funding 
additional field offices?
    Dr. Billington. Well, the study that I think you are 
referring to was begun in January of this year. The Associate 
Librarian for Library Services, Dr. Marcum--Dr. Deanna Marcum, 
who controls the 52 different units within Library Services, a 
very broad span of responsibilities, she formed a small working 
group to analyze this whole problem of the overseas offices. It 
is not really a problem. I think it is more an opportunity.
    The working group was charged with addressing whether they 
were acquiring and processing materials that are otherwise 
unobtainable. Are they being collected? Is what we are 
collecting the most desirable? Are the overseas operations 
conducted in a cost-effective manner? And the current 
operations, are they sustainable over the long and short run?

                  BREADTH OF INTERNATIONAL COLLECTIONS

    The working group will address this in a final report to be 
delivered to GAO on July 22. In fiscal 2008, our overseas 
offices acquired almost 300,000 items for the Library's 
collection. This compares to 443,000 items acquired for the 
Library's collection from other foreign sources.

              SUBSTANTIAL ADDITIONS TO FOREIGN COLLECTIONS

    So it is roughly two-thirds of what we have acquired in the 
continuing quest dating back to Jefferson's Library, which had 
books in 16 languages and set the precedent for the 
universality of these collections. Items from the overseas 
offices are well more than one-half of what we collect from 
other foreign sources, a total of about 750,000 items from 
foreign sources acquired for the Library's collections overall.
    Now the differential between what the Library of Congress 
has and what any other institution has is going to increase 
because in the other major research libraries around America, 
there has been a sharp reduction in foreign acquisitions 
because of the economic crisis and endowments and so forth. And 
it has always been very large.
    If you look where the overseas offices are, they happen to 
be almost uniformly in places where the book trade is not 
developed. So you don't really have alternative modes of 
gathering things, for instance, in Islamabad, Pakistan; New 
Delhi, India; Jakarta, Indonesia; Cairo in Egypt; and Nairobi 
in Kenya; and then Rio de Janeiro.
    It really is a unique source of published material that you 
won't get anywhere else. No book dealer would have discovered 
the mimeographed copy in an obscure Afghan town of the 
autobiography of Osama bin Laden. Nobody even knew that such a 
thing existed. It was a mimeographed form from the early 1990s, 
from a very obscure village in Afghanistan.
    So these offices have many native employees who fan out and 
have regular sweeps through precise areas of the world that are 
of particular concern to us. And so, I think it is a unique 
resource.

                      OVERSEAS OFFICE SUBSCRIBERS

    Seventy-five other research libraries across America, in 32 
States, participate in the program. Anybody who wants to 
collect foreign language materials from those parts of the 
world will depend on this source. So it not only benefits the 
Library of Congress, it benefits other institutions across the 
country.
    We will give you the full report, though, in answer to your 
question, on July 22.
    Senator Murkowski. Do you get any contribution from any 
other countries? You just noted how everyone else benefits. Is 
anybody else a participant financially?
    Dr. Billington. There are, I think, some Canadian libraries 
who are subscribers. Maybe Dr. Marcum would like to fill in a 
few details on that?
    Dr. Marcum. Oh, I will just speak loud enough for you to 
hear. There are 75 libraries in 32 States that are 
participating. These are mostly United States research 
libraries, but also there are other national libraries that 
participate. The British library, for example, is one of the 
participants.
    They cover the cost of the materials, and they pay an 
overhead fee as well that helps us----
    Senator Murkowski. The amount that is in this year's budget 
request is $15 million. What would you anticipate you get from 
the other participating countries? And I won't hold you to a 
figure, of course, just off the top.
    Dr. Marcum. Roughly, they cover the costs of the materials, 
plus about 10 percent overhead.
    Senator Murkowski. So what would you anticipate that to be?
    Dr. Marcum. I could get that and get back to you.
    Senator Murkowski. If you could, I would appreciate that.
    Thank you.
    Thank you, Mr. Chairman.
    [The information follows:]

    Fiscal 2008 receipts from the sale of collection materials by the 
overseas offices were $3.346 million. Fiscal 2009 receipts are 
projected to be $3.019 million.

    Dr. Billington. It is an interesting phenomenon that the 
amount of published material continues to grow. You read things 
in the popular press about how digitization is going to replace 
published material and particularly ephemera, things like this 
essentially mimeographed book by Osama bin Laden. Forms of 
communication like this, which you would never get from an 
organized book dealer, but which represent the opinions of 
smaller groups, groups that may become of great importance.
    It was very important that we had collected audiotapes on 
the Left Bank in Paris because that was the only record we had 
when the radical Islamist revolution occurred in Iran, and the 
speeches by the new regime that was coming in, they were first 
rehearsed there. But more and more, there are more 
participants, and we are getting access to them and having 
fruitful conversations as everyone wants to join this World 
Digital Library and demonstrate the cultural treasures of their 
own countries around the world.
    So the international collection, I think, of the Library of 
Congress is very unique. It helps everybody else in the 
country, encourages them, and gives them a reasonable 
alternative. But we will give a full report to the Government 
Accountability Office (GAO) on July 22. And any specific 
questions, further questions Dr. Marcum will be happy to answer 
for the record on this. As you can see, I am rather positive 
about these offices overseas. I have visited quite a number of 
them, and they have very good relations.

                     CAPITAL SECURITY COST SHARING

    One of the reasons that they are costing more is because we 
have to pay--the State Department now levies a rather 
substantial charge that is unfortunate, but perhaps necessary, 
and that is for running them because they have run historically 
through the Embassies, and they are now charging a substantial 
fee, which they didn't a few years ago.
    Senator Nelson. Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.

                       FORT MEADE MODULES 3 AND 4

    I want to thank the panel for being here, and it is good to 
see everybody again.
    I would like to start, if I may, with a storage issue, and 
that is you requested $3.5 million to implement Fort Meade 
Modules 3 and 4. And as I understand it, the budget also 
requests $16 million in funding to begin construction of Module 
5.
    Tell us, if you can, about this idea of storage when, 
again, the popular perception is that things are going digital, 
and we are investing more and more to store physical books at 
the same time you are asking for money to do more digital. Tell 
us how that works.

            RETRIEVAL, PRESERVATION, AND COLLECTION SECURITY

    Dr. Billington. Well, it isn't solely storage. It is a 
question of efficient retrieval. It is a question of 
preservation. It is a question of security.
    The two modules that we have fully operational at Fort 
Meade attained 100 percent retrievability, which is absolutely 
amazing. So that you can work in the 21 reading rooms we have 
here on Capitol Hill, you can get in a short space of time, 
with 100 percent certainty, delivery from these very scientific 
kinds of semi-automated storage modules--and they are 
controlled for preservation of these materials.
    Most people don't realize that books produced since 1850 in 
the United States and in most of the world are perishable. 
Everything on which knowledge and creativity is recorded is 
degrading, and the Library of Congress has a unique 
responsibility to preserve a lot of this material.
    Now we had Amazon in for a pro bono inspection not long ago 
to see if there are any alternatives to storage because they 
have a huge storage and inventory management program, and they 
said there is no alternative but additional space. You cannot 
simply put books on the floor. There is no way of retrieving 
them, and a new plan is being developed.
    Modules 3 and 4 will be up and running by July. So there is 
a request for making them operational. Once we get the building 
built, it is essential that we move the collections there, and 
make these modules fully operational. We are 8 years behind on 
this project, but Modules 1 and 2, which are fully functional, 
have been extraordinarily successful. To get 100 percent 
retrieval in any huge library system is amazing.
    We get 2, 2.5 million new physical objects and I don't know 
how many terabytes of digital material every year to add to the 
inventory. And you have to store this, but you have to be able 
to preserve it, and you have to do this in environmentally safe 
and defensible facilities. I have said at times that you have 
to have Fort Knox to pay for it. But this is Fort Meade.
    Now as audio-visual materials have been taken care of with 
the support of the Congress at our new facility in Culpeper, 
that whole facility was created by the Packard Humanities 
Institute at a cost of at least $150 million, more likely at 
full valuation close to a $200 million donation. So the big 
capital expense was made by them in partnership with the 
Congress.

                SPECIAL COLLECTION STORAGE REQUIREMENTS

    Implementing Modules 3 and 4 is particularly tricky because 
these are for special collections, not just for books that can 
be nicely stacked and easily, almost robotically, retrieved in 
a large facility. These are, for example, maps, many of which 
require special cases. But this should be the final rounding 
out of facilities for preserving the special collections, which 
in the Library include unique and enormous manuscripts, and 
many kinds of nonprint things. They are all unique formats, but 
have to be stored properly--so that is rather expensive.

                          FORT MEADE MODULE 5

    Module 5 is in the Architect of the Capitol's budget, of 
course. But we strongly support that investment. To preserve a 
comprehensive collection of the world's knowledge is a very 
expensive and complex undertaking.
    We have a network. It is not just the overseas offices that 
purchase things. It is also exchanges. We exchange Government 
publications of the United States for important materials. We 
have exchanges with hundreds, even thousands of institutions 
internationally.
    Senator Pryor. Dr. Billington, let me interrupt there and 
just ask one quick follow-up, and then I have another question.
    Dr. Billington. Yes.

                     STORAGE CAPACITY AT FORT MEADE

    Senator Pryor. And the quick follow-up is how long before 
you are at capacity with units 4 and 5? How long into the 
future is that going to carry us?
    Dr. Billington. Well, and I asked----
    Senator Pryor. I am sorry. I said 4 and 5. I mean 3 and 4.
    Dr. Marcum. Modules 3 and 4 will be for special collections 
materials. These are the maps, the photographs, the 
manuscripts, rare books, and so on. Those modules will be 
filled as quickly as we can move materials into them because we 
are already well beyond capacity here on Capitol Hill. So every 
square foot is accounted for already in those two modules.
    Module 1 is completely filled. Module 2 will be filled with 
books from the general collections in the next few months.
    Senator Pryor. So it will be at capacity in the next few 
months?
    Dr. Marcum. Yes, Modules 1 and 2. So it is very important 
that we have Module 5 to proceed with the books from the 
general collections. We have books stacked up on the floors. 
There is no more expansion space here on Capitol Hill.
    Senator Pryor. So if you get I think you said 2, 2.5 
million books a year, how long will it take you to fill Module 
5?
    Dr. Marcum. It will take--we take in about 1,200 items a 
day into our collections. That includes both books and special 
collections. So we could fill modules fairly quickly. It would 
probably take a couple of years to move things from the 
collections to modules.
    Senator Pryor. I guess part of what I am asking is does 
that mean in 2 years you will come back and say we need a new 
Module 6? Is that----
    Dr. Marcum. We already have a plan for 13 modules over a 
long period of time. But it is important, I think, for us to 
say, too, that global book publishing is increasing quite a lot 
every year. Even though digital is a very important part of our 
world, book publishing continues to increase. And we are 
collecting internationally. We have a lot of materials----

                           LAW LIBRARY, GLIN

    Senator Pryor. And the last question I had--and I am sorry, 
Mr. Chairman--I did have this one question about the Law 
Library. There is a budget of $19.9 million, which is a $4 
million increase. Some of this is for the Global Legal 
Information Network. And as I understand it, there is also some 
interest in the private sector to help pay for some of this, 
but there may be some legal barriers. Could you tell us about 
that?
    Dr. Billington. Well, we hope very much that that will 
develop. We have been working with committees of the American 
Bar Association and others to discuss this. The Law Library has 
had a dramatic increase in the use of its global information 
network.
    For instance, the President is just today or just yesterday 
in Saudi Arabia. The only online resource for information about 
the laws of Saudi Arabia is in the Global Legal Information 
Network, that now has 36 member nations. It covers the laws of 
51 jurisdictions worldwide. We have to sustain the underlying 
GLIN technology.
    There are other challenges. You have to move, change the 
classification of a large amount of legal material to make it 
more easily accessible. We are working on that.
    And we are in the process of hiring a new law librarian. We 
have excellent interim leadership with Ms. Scheeder. Is she 
there? Oh, right. And she may want to add something to this 
from the Law Library.
    Senator Pryor. Well, just----
    Dr. Billington. But there are no legal barriers. There have 
never been legal barriers to receiving funds from private users 
of the Law Library. We are working closely with the House 
Administration Committee to add additional gift language to 
encourage this, and we are also working with some committees, 
particularly of the American Bar Association, to see if they 
have often expressed desire to beef up various things in the 
Law Library, if they might contribute something.
    I think there is no question that the world's best 
collection of international law contributes a great deal to the 
private practice of law, as well as to the Congress and the 
judiciary and to the executive branch of our own Government. So 
we are working as aggressively as we can on that. I can't 
report sensational results. But we hope this will be a part of 
what happens in the next year or two.
    Senator Pryor. Thank you.
    Thank you, Mr. Chairman.
    Senator Nelson. Thank you, Senator Pryor.

                      DIGITAL TALKING BOOK PROGRAM

    I have something that might be a little bit different for 
you to talk about. Can you tell us a little bit about the 
digital talking book project? I can get you away from talking 
about numbers and percentages and things like that. It might be 
something you might be anxious to tell us about.
    Dr. Billington. Well, I think that the digital talking book 
program is making pretty good progress. We have already, I 
think, received the first 5,000 machines, and we are going to 
get a lot of feedback on their use. But we are proceeding 
according to schedule.
    It is a very important program. As you know, blind people 
read a lot more than sighted people, and this is a service that 
is very central to the long-term mission. And I think it is 
proceeding well. Maybe Dr. Marcum would want to add a word or 
two about it, but I think it seems to be going well.
    We are moving from a traditional analog universe to a 
digital universe, but it seems to be going well within the 
multiyear development program. This is another example of how 
we are moving into the digital universe for one of our most 
important constituencies.
    And of course, this is administered through local libraries 
everywhere. So it is not something that is dispensed here in 
Washington. It is a really unique national service.
    Dr. Marcum. I think that is the story. Everything is on 
schedule. The players are being produced and the books are 
being produced, and it is exactly as we had planned it.
    Senator Nelson. Can you give us some idea of the scale or 
the size of the project? Is this like everything else that you 
do there? I am sure it is big. The question is how big?
    Dr. Billington. Well, do you want to----
    Dr. Marcum. Kurt Cylke is here. We are going to have Kurt 
Cylke answer.
    Senator Nelson. We have an awful lot of help going on here. 
That is okay.
    Mr. Cylke. This project is a $100 million project 
approximately. There are 800,000 blind and visually handicapped 
people that are using the program now. Dr. Billington and Dr. 
Marcum are correct. We shipped the first 5,000 machines out to 
nine individual libraries and designed a final test to make 
sure that the machines were working well.
    We gave permission to begin production, mass production, to 
the Shinano/Plextor Company in Japan. Production started on 
Monday of this week. They will be producing 23,000 machines a 
month for the first 3 months, 20,000 machines a month after 
that, and the initial run-up will begin the first week of 
August.
    Senator Nelson. Thank you.
    I don't want to leave Ambassador O'Keefe out here now.
    Ambassador O'Keefe. Thank you, sir.
    Senator Nelson. I was interested--after you visited my home 
State and Lincoln in the State of Nebraska with the Open World 
delegates, apparently they were inspired to start up a program 
back in their own countries like the 4-H program that we enjoy 
in America. And yesterday, I must have had my picture taken 
with 100 or more 4-H-ers from Nebraska.
    So I am proud of that program, and it is not limited to our 
State, but maybe you can explain a little bit how you bring 
delegates to the various locations in our country and where 
they come from and how this works?

            NOMINATION OF PARTICIPANTS AND PROGRAM PROCESSES

    Ambassador O'Keefe. Yes, sir. Thank you for that question.
    We work very closely with host organizations and the hosts 
themselves. We often follow the enthusiasm. The thing that I am 
most surprised about--as I mentioned, we went to 44 States in 
fiscal year 2008--is how broad this enthusiasm is.
    In the nomination process, we draw from several sources. We 
draw from the host countries organizations from the U.S. 
Embassies and some of the host country institutions: For 
example, councils of judges. But a substantial number of 
delegates, over one-third, come from organizations in the 
States and cities in the United States themselves.
    The particular group that came to Lincoln was actually 
nominated in Russia. And what we look for is shared interests. 
The individual who came to Lincoln was at a university, and 
very interested in organizing young people. And not only did he 
get the 4-H idea, but he also noticed the ramps for people with 
physical handicaps during his trip to the United States, which 
were not at his university. On his return, he installed a 
similar ramp. This is a small thing. But little by little, if 
you are bringing more than 14,000, it has a cumulative effect.
    What we tell our delegates and what I told 50 Russians who 
came here this morning was that their journey begins when they 
get back home. What we want to see and what we hope they do is 
form partnerships. This is what often happens. The person who 
visited Lincoln could implement the concept of a 4-H-type club 
because he has people back in the United States with whom he 
can discuss ideas.
    Senator Nelson. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Ambassador, I would like to go back to the issue that I 
raised in my opening remarks, and that is why a foreign 
exchange program belongs in the legislative branch bill. I 
understand that our House counterparts have been encouraging 
you to seek either some or all funding from the State 
Department and that there has apparently been some kind of a 
report underway.
    Can you give me just an update on what is going on with 
that report, what you are finding? And just kind of help me 
understand how you ended up in this particular part of the 
legislative branch budget.

         OPEN WORLD'S PLACEMENT AND ROLE IN LEGISLATIVE BRANCH

    Ambassador O'Keefe. Senator, thank you.
    I will just start with saying when I was first approached 
about becoming Executive Director of Open World, I had the same 
question you did. Why is this in the legislative branch? And I 
think, like many converts, I became very enthusiastic.
    The board of trustees submitted a report last year around 
this time addressing that particular question. I don't want to 
take up too much time, but, in essence, what the board found 
was that by not being any part of an administration policy, 
Open World is uniquely placed to operate in all of these 
countries where relations may go up and down, but we, as part 
of the legislative branch, are not constrained.
    And we also find that by being associated with the 
legislative branch, we can draw a much broader range of 
individuals who might not otherwise want to go on an executive 
branch program.
    I think the second thing is that we--as Senator Nelson 
alluded to, are driven by constituent interests. And so what we 
try to do is link to people in your States and determine what 
they are interested in, then find counterparts so we can create 
these partnerships.
    For example, in Alaska, Carolyn Jones, who is in Rotary in 
Alaska, was our person of the year last year because of her 
extensive work in working with people from Russia coming to 
Alaska, especially for those in the Dal'nii Vostok, in the 
regions that are on the Pacific Rim as is Alaska.
    The report which we submitted on May 30 asked us to 
determine the feasibility of funding from the State Department 
and from the judiciary. Dr. Billington and I went to the State 
Department as soon as we saw the portion of the appropriation 
for 2009 and discussed possibilities with Under Secretary 
Burns.

           FUNDING OPTIONS AND ALTERNATIVE SOURCES OF FUNDING

    I had several follow-up meetings and presented a proposal. 
The proposal was for 50 percent funding from the State 
Department foreign operations appropriation. I have to be very 
honest, and I was honest in the report. The feasibility of the 
State Department funding for fiscal year 2010 is unlikely. It 
is not completely out of the question, but unlikely.
    One of the things that I sought also from the State 
Department and something which is in process, which might help, 
is that the Georgia supplemental is moving forward right now. 
It is $240 million in the House, $200 million in the Senate, I 
believe. Twenty million dollars of that is designated for 
democracy programs. We could fit in there.
    And should we have our Georgia program funded from that, 
that would be able to reduce our budget by a like amount for 
this year. And that decision comes, I presume, in a month or 
so.
    Just so I am clear, we are constantly looking for cost 
shares. We receive $1.5 million in in-kind contributions, and 
we received another, let us see, $330,000 in gifts, and a 
$530,000 grant from the NEA, appropriated money given to us to 
run a cultural program. We do seek these other sources.
    In addition to those sources, as part of the May 30 report, 
I said that we would submit an action plan on our fundraising 
external to the appropriation process--in other words, 
foundations and other donors.
    Senator Murkowski. What might you anticipate in, say, 2009 
and 2010 then?
    Ambassador O'Keefe. I am no expert in this field, which in 
a way makes the process a little longer. But in talking to the 
individuals and then starting to put this together, what we 
would expect is that whatever we get in 2010, when I come here 
next spring or next June, those funds would be backed out of 
our 2011 appropriation.
    We have requested $1.3 million from the United States-
Russia Foundation. I don't know whether we will get that. I 
think we may get a portion of it. Should they provide some 
funding, we will reduce our fiscal year 2011 request.
    We will be approaching other foundations. We have a member 
of our board, former Representative Bud Cramer from Alabama, 
who has agreed to walk through the door with us. But what he 
said was before we do anything, whoever we are asking has to be 
warmed up. He said very warm. We are doing our due diligence 
because we only have one chance, and we have to do it right 
when approaching these foundations, especially at a time when 
their endowments have dropped 30 to 50 percent. It appears 
that, in general, they are only funding their ongoing 
commitments, not new ones.
    Senator Murkowski. Yes, it is a tough landscape out there. 
I think we all appreciate that. But I think we also recognize 
that if you want to do any further expansion that the key is 
going to be in these partnerships and in these cost-sharing 
efforts that it sounds like you are pursuing very aggressively 
already.
    Ambassador O'Keefe. Yes, ma'am. And I will keep you and the 
chairman informed of the progress. And as I say, I understand 
that this kind of activity is a long process.
    Dr. Billington, of course, is a master at it. So I am 
trying to learn at his knee.
    Senator Murkowski. Thank you, Mr. Chairman.

             CHAIRMAN BILLINGTON ON OUTLOOK FOR OPEN WORLD

    Dr. Billington. No one is a master of the financial 
problems that we are in, but I was going to say I might just 
add, on behalf of the board, that there is, I think, a feeling 
that there has been a certain hesitancy of the business 
community to themselves invest very heavily. But there have 
been some pioneers and that is including some from Nebraska who 
have been very imaginative and consistent on this.
    And I think the opinion generally is that there is a 
reasonably good chance that with new presidents in both 
countries--and I mean, I had a conversation with the president 
of Russia on this, and he didn't make any promises. But he 
expressed great appreciation for this program, and it seems to 
me that just 10 days ago there have been indications that they 
are thinking about and, at one point, planning to do a parallel 
program to bring Americans over.
    Whether that will materialize or not is not clear. But I 
certainly think that there is a good chance that more people 
will be thinking of this as a possible area in which they 
should become re-interested. So I think this year is rather 
crucial if we can continue to validate the program.
    I think another point about being in the legislative branch 
is that if you are dealing with countries that are struggling 
one way or another with the rule of law, which is the main big 
program in this Open World program, and are legitimizing the 
importance, independent importance of legislatures and 
judiciaries, that having something directly approved by the 
legislative branch of Government is itself something that helps 
make a kind of statement.
    People, I think, understand also the fact that this is not 
just Russia. We actually--the board increased, at the Congress' 
recommendation, the allocation to Georgia when they were in 
some difficulty. And I think, for instance, if it were possible 
to include part of the Georgia program in this special 
supplemental, that money would be--that would lower the amount 
that we would need for this program since the board has voted 
to double the amount in Georgia to sort of help them out at the 
same time that we are continuing with the Russian program.
    So I think this is kind of a crucial year to try to sustain 
the program. And I think it is beginning to register seriously 
that this has been a direct program of the American people and, 
in fact, through their elected representatives, many of whom 
have involved themselves one way or another, have been 
hospitable to and received these delegations when they come 
through.

               OPEN WORLD ALUMNI--TRANSFORMING EXPERIENCE

    I have been in Russia to speak at the dedication of this 
new library system. And it is amazing. I met a great many 
alumni of the program. They have all been very much impressed. 
But at the same time, they have all gone back, all 13,000 
Russians that have come have gone back. That has never before 
happened. These are average age 38, one-half of them women. 
That has never before happened in Russian history.
    And this is a transformative thing, and you have 10 percent 
of the duma, 15 percent of the Supreme Court are alumni of this 
program. You have a really transformative initiative within the 
legislative branch, and that, in itself, is something that 
people comment on.
    And that it is a statement of fact that the knowledge-based 
democracy, if you want to have an accountable, participatory 
government, they have to have access to knowledge. And so, you 
have permitted us and sustained us in this digital age to 
establish a kind of facilitative leadership role without being 
a dominant overbearing force, and I think this kind of program 
is separate now from the Library. It is only accidentally 
linked with me.
    But it was conceived and signed in the legislative branch 
of Government, and it has been sustained. I think it has now 
registered even at the highest levels in Russia that this is 
something rather remarkable that the Congress has done. And so, 
just a thought.
    Ambassador O'Keefe. Madam Senator, if I could just add two 
quotes, which I think exemplify what we do?
    This is from the chairman of the Atlanta-Tbilisi Sister 
City Committee. And he says, ``Through my involvement in the 
Open World program, I have come to see that in these tough 
economic times, we must make special effort to nurture personal 
ties. Personal ties with foreign emerging leaders also 
strengthen business ties, and business ties strengthen 
democracies. Open World makes our country and countries like 
Georgia stronger in many ways. I am grateful to Congress and 
Open World for fostering such relationships.''
    And the co-chairman of the Helsinki Commission from the 
House side noted that Open World has been both ``important for 
and responsive to Congress.'' We have other quotes, but I just 
wanted to give you a flavor for what we do for the Congress.
    Senator Nelson. Well, I want to thank both of you, and Ms. 
Jenkins as well and Dr. Marcum for your contributions, and for 
others who suggested things from back in the audience as well.
    It has been very helpful for us to understand the budgetary 
requests and to understand the programs that you are engaged 
in, that you are expanding. We appreciate the enlightenment, 
and we look forward to continuing to work with you. And we want 
to thank you very much.

                     ADDITIONAL COMMITTEE QUESTIONS

    And I want to thank my colleague and ranking member, 
Senator Murkowski. We found that we are both very fiscally 
responsible and at the same time want to make sure that we do 
the appropriate work in recognizing the needs, but also the 
limitations that we have. So thank you so very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Library for response subsequent to the 
hearing:]
              Questions Submitted by Senator Lisa Murkowski
    Question. Last year, GAO recommended that the Library develop a 
digital strategy. Does the Library have a digital strategy that GAO has 
concurred in? In developing the strategy, how did the Library assess 
the needs of its stakeholders for the different types of digital 
content planned? How does the digital strategy support the $15 million 
investment LOC proposes for fiscal year 2010 and future years?
    Answer. The Executive Committee of the Library prepared one digital 
strategy for the Library, taking into consideration the guidance GAO 
had given us. Each of the Service Unit heads is responsible for 
bringing the needs of their stakeholders to bear in developing the 
digital strategic plan. The $15 million budget request for 2010 is to 
support this digital strategic plan and is outlined in the last chapter 
of the plan.
    Question. Library Services is proposing $1 million to undertake a 
study of the current use of technology as a first step to developing an 
enterprise architecture. Yet LOC requests a base increase of $15 
million for the Office of Strategic Initiatives to redesign and 
reconfigure the Library's online delivery infrastructure, among other 
things. How will the Library Services study will be used and why should 
the Library proceed with information technology infrastructure 
investments before the study is completed?
    Answer. Library Services is a large and diverse operation with 
unique requirements. As such, a thorough understanding of the workflow 
and current use of technology is a part of developing the future IT 
environment for LS and LC. Documenting the current LS environment feeds 
into the documentation of future requirements for new software and 
hardware solutions. This is a typical step in the systems life cycle 
development methodology.
    The requirements gathering work has already started with the 
initial ten divisions that are currently under review. The $1 million 
would allow us to complete this stage for the remaining Library 
Services' Divisions and to start the next phase in the areas that 
pertain to LS and its Divisions. This work will create the integrated 
administrative and operational workflow and the standardization of our 
databases that is unique to LS.
    A common architecture is needed for the institution. We do not 
recommend stopping the work on IT infrastructure improvements while 
waiting for the completed requirements document. In this way the 
underlying architecture can be in place and will allow faster progress 
once the SU requirements are documented. During the ITS refreshment, 
the ITS staff will be meeting with the Service Units about their plans 
thereby guaranteeing institutional continuity and integration.
    Question. How will the Library use technology improvements to 
achieve greater efficiencies and potentially less need for physical 
storage?
    Answer. The Library is collecting and creating an increasing amount 
of digital content, and at some point we fully expect the majority of 
materials will come to us in electronic forms. The reality currently is 
that the production of physical materials has not slowed; it has 
continued to increase. Moreover, there is very little overlap between 
the physical and the digital. It is not a matter of selecting one over 
the other. The Library, with funding from the Alfred P. Sloan 
Foundation, has established a book digitization center, which can 
create digital copies of physical books at the rate of 1,000 volumes 
per week. Once digitized, the physical objects are sent to Fort Meade 
for long term preservation, thus freeing up some space in the stacks. 
The reality, though, is that the Library receives 1,000 new volumes per 
day, so digitizing 1,000 older materials each week will not keep pace 
with the demand. The Library has a unique responsibility as the 
national library to collect materials in the formats in which they are 
produced, and we cannot continue to do so without sufficient storage 
for both physical and digital materials.
    Question. What skills are needed to accept, manage, and make 
available an increasing volume of digital content? Has the Library 
undertaken workforce planning that would address the changing skill 
sets needed?
    Answer. The Library identified an initial set of basic digital 
proficiencies that are needed for librarians and curatorial staff 
across the agency. These include navigating the online public access 
catalog (OPAC) and staff subscription databases, adapting to the 
changing role of libraries and librarians, and understanding the 
increased role of digital resources in the Library. Further, basic 
digital proficiencies for subject specialist positions were identified 
and include advanced web searching, working within the various modules 
of the Integrated Library System (Voyager), understanding emerging 
licensing issues, and metadata. In addition, the Library's Federal 
Library Information Center, in consultation with other federal 
libraries, library associations, and the Office of Personnel 
Management, developed the ``Federal Librarian Competencies.'' These 
competencies define the knowledge, skills, and abilities needed in 
areas such as data preservation and long term access, data authenticity 
and authorship, and intellectual property. As the Library hires new 
staff, it reviews existing position descriptions and determines the 
knowledge, skills and abilities needed for these jobs through a 
structured job analysis process. Digital competencies and other needed 
skills are analyzed and reflected in each vacancy posted and drive the 
selection process. Also, Library Services is developing a ``Knowledge 
Navigators'' plan to train staff to work in the 21st century library 
using their expertise, skills, and talents in a digital environment.
    Question. LOC has requested $7 million to continue the Teaching 
with Primary Sources program. Can this program be used to improve 
distance learning opportunities for educators in rural areas?
    Answer. The Library has requested no additional funding for the 
Teaching with Primary Sources (TPS) program in 2010. The Library is 
launching an online database, TPS Direct, on June 30, 2009. TPS Direct 
will offer any educator, at any time, the ability to customize 
professional development activities from the TPS program for use at the 
school, district or state level for delivery in a face-to-face, online 
or blended format.
    Distance learning outreach is already taking place in Alaska 
through a TPS Regional Grant. Following the TPS workshops that were 
held in Anchorage the week of June 1, a series of webinars and 
asynchronous discussion forums will be led by Elizabeth James, 
Assistant Professor of History, University of Alaska Anchorage 
professor, and Peggy O'Neill-Jones, who manages TPS regional activity 
in the Western part of the United States.
    Question. CRS is requesting $1.8 million for ``enhanced access to 
CRS expertise'' in fiscal year 2010. Please prioritize the elements 
within the $1.8 million request and the amount of funding that will 
allow a staged implementation of CRS's enhanced access.
    Answer. The $1.8 million in fiscal 2010 would accomplish the 
following elements:
  --$0.9 million to design a framework for CRS information systems and 
        data sets that can provide an integrated, interrelated, and 
        interoperable research environment;
  --$0.6 million to procure the software needed to implement the new 
        framework; and
  --$0.3 million to customize the software and begin implementation of 
        the plan.
    If the software procurement and implementation was delayed 1 year:
  --$0.9 million would be required in fiscal 2010.
  --The cost in fiscal 2011 would increase from $1.3 million to $1.8 
        million
    --$0.6 million added for cost of software.
    --$0.1 million in software maintenance costs avoided.
  --The cost in fiscal 2012 would increase from $1.0 million to $1.3 
        million to complete the initial deployment actions.
  --The cost of continued services, maintenance, and enhancements would 
        be $1.0 million in fiscal 2013 and beyond.
    Question. Please describe the process you use to ensure the quality 
of your work products, and specifically the process you use to validate 
the factual accuracy of the information in your reports.
    Answer. CRS makes every effort to ensure that its work meets 
several critical quality criteria: it must be accurate and clearly 
articulated; authoritative; objective, non-advocative, non-partisan, 
and without political bias; and must be in conformance with Service 
standards and client expectations of confidentiality. At the same time, 
CRS responses to congressional needs must be timely. Requests are often 
accompanied by tight deadlines that must be met if the information 
provided is to be of value to the client.
    For product quality assurance CRS relies first and foremost on the 
professional competence of its analysts and researchers. CRS experts 
form the ``first line of defense'' against error, but are then backed 
up by a multi-level review process that is designed to ensure product 
quality and adherence to CRS standards and policies. This multi-level 
review starts with scrutiny by Section Research Managers who oversee 
the work of sections of approximately a dozen analysts assigned by 
subject matter expertise. Following that review, a research division 
review (by one of five research divisions) is conducted that ``clears'' 
the document to be sent to the Office of Review, overseen by an 
associate director, for final clearance and delivery to the client. 
This final review stage addresses primarily matters of policy (focusing 
on objectivity and balance) but is also a ``fail safe'' for matters of 
accuracy, clarity, and authoritativeness. Throughout the process, 
starting with the author and through the Office of Review examination, 
emphasis is also placed on peer review and inter-divisional review. 
Given the multi-faceted and inter-disciplinary nature of CRS work, 
every effort is made to bring all relevant CRS expertise to bear on the 
issues addressed. This is in keeping with CRS collaborative research 
methodologies that start with the author, and is critical to the 
production of appropriately integrated and comprehensive products for 
the Congress.
    As you know, the high volume of congressional demands places 
significant pressure on CRS analysts and information specialists. While 
we believe that the process outlined above minimizes the risk of 
mistakes, the challenge of avoiding human error is ever-present. When 
we learn of any errors it is Service policy to respond immediately to 
any concerns and to take swift action to make any appropriate 
corrections.

                         CONCLUSION OF HEARINGS

    Senator Nelson. The hearing is recessed.
    [Whereupon, at 3:42 p.m., Thursday, June 4, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
